<html>
<title> - OCTOBER 2005 STATUTORY DEADLINE FOR VISA WAIVER PROGRAM COUNTRIES TO PRODUCE SECURE PASSPORTS: WHY IT MATTERS TO HOMELAND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 OCTOBER 2005 STATUTORY DEADLINE FOR VISA WAIVER PROGRAM COUNTRIES TO 
     PRODUCE SECURE PASSPORTS: WHY IT MATTERS TO HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2005

                               __________

                           Serial No. 109-23

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary









                 U.S. GOVERNMENT PRINTING OFFICE

20-711                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001










                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel
                          Art Arthur, Counsel
                 Luke Bellocchi, Full Committee Counsel
                  Cindy Blackston, Professional Staff
                   Nolan Rappaport, Minority Counsel




















                            C O N T E N T S

                              ----------                              

                             APRIL 21, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3
The Honorable Dan Lungren, a Representative in Congress from the 
  State of California............................................    28
The Honorable Howard Berman, a Representative in Congress from 
  the State of California........................................    30
The Honorable Jeff Flake, a Representative in Congress from the 
  State of Arizona...............................................    31
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas.............................................    33
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa..................................................    34
The Honorable Maxine Waters, a Representative in Congress from 
  the State of California........................................    40

                               WITNESSES

Mr. Rudi Veestraeten, Director General for Consular Affairs, 
  Belgian Ministry of Foreign Affairs
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Ms. Elaine Dezenski, Acting Assistant Secretary for Policy and 
  Planning, Border and Transportation Security Directors, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Mr. Richard L. Skinner, Acting Inspector General, U.S. Department 
  of Homeland Security
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Mr. Joel F. Shaw, President and Chief Executive Officer, 
  BioDentity Systems Corporation
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Chairman Hostettler's Question posed to Ms. Elaine 
  Dezenski at the hearing, submitted by the U.S. Department of 
  Homeland Security..............................................    46
Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin and 
  Chairman, House Judiciary Committee............................    46
Questions for the Record submitted to the U.S. Department of 
  Homeland Security by Chairman John N. Hostettler...............    48
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    50
Letter from the Travel Business Roundtable, Travel Industry 
  Association of America, and U.S. Chamber of Commerce, submitted 
  by the Honorable Sheila Jackson Lee............................    52
Prepared Statement of the Honorable Maxine Waters, a 
  Representative in Congress from the State of California........    53
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress from the State of Califonia.........    54























 OCTOBER 2005 STATUTORY DEADLINE FOR VISA WAIVER PROGRAM COUNTRIES TO 
     PRODUCE SECURE PASSPORTS: WHY IT MATTERS TO HOMELAND SECURITY

                              ----------                              


                        THURSDAY, APRIL 21, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:09 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John H. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. Good afternoon. Today we meet to determine 
whether the Department of Homeland Security (DHS) is prepared 
to address the October 26, 2005, deadlines mandated by law that 
come into effect on that date with regard to countries in the 
Visa Waiver Program.
    This program allows travelers from certain designated 
countries to come to the United States as temporary visitors 
for business or pleasure without having to obtain a non-
immigrant visa. There are currently 27 countries participating, 
and it is estimated that as many as 20 million foreign visitors 
entered the U.S. under the program in 2004. Clearly, it is of 
great importance to the U.S. travel and tourism industry and to 
the 22 million Americans employed in that industry.
    Since its creation in 1986, the program has greatly 
facilitated travel to the United States from program countries. 
Through reciprocal arrangements, the program also benefits 
American international travelers.
    The Visa Waiver Program was established on the premise that 
nationals of participating countries pose little risk of being 
security threats or overstaying the period of their admittance. 
Rules for eligible countries include the security of the travel 
documents they issue, among others, which is evaluated by the 
U.S. Government to validate continued participation.
    The presumption is, because of the evaluation by DHS of the 
respective country's management of its travel documents, there 
is no need for pre-screening by State Department consular 
officers abroad. Without the exemption provided by the Visa 
Waiver Program, the consular officers would need to review 
documents provided by a visa applicant and interview the 
applicant to determine whether he or she posed a danger or was 
likely to overstay.
    This premise may have been true in years past. It is not 
the case today. In December 2004, a ``Review of the Use of 
Stolen Passports from Visa Waiver Countries to Enter the United 
States,'' issued by the DHS Office of Inspector General (OIG), 
painted a rather frightening picture. The OIG report said that 
aliens using stolen passports have little reason to fear being 
caught, are usually admitted, and that has made only a small 
difference whether the stolen passports were posted in the 
lookout system. When the results of that report are combined 
with continuing revelations of stolen blank passports, such as 
the thousands stolen in France last year, it seems to me that 
Congress needs to look again at DHS' security management of the 
program.
    The Enhanced Visa Security and Visa Entry Reform Act of 
2002 levied a series of requirements and deadlines to address 
the threats from terrorism from visitors entering as tourists 
and foreign students. Among these, it requires that by no later 
than October 26, 2004, the governments of Visa Waiver Program 
countries certify that they have programs to issue to their 
nationals machine-readable passports that are tamper-resistant 
and that incorporate biometric identifiers that comply with 
biometric identifier standards established by the International 
Civil Aviation Organization (ICAO). On or after this date, any 
alien applying for admission under the program must present a 
passport that meets these standards, unless the passport was 
issued prior to the date.
    Last year, Congress acted to extend that important deadline 
for 1 year, in response to a request from the Administration, 
and promises by the Secretary of Homeland Security to 
strengthen inspections of visa waiver country programs for 
strengthening passport security.
    This requirement would allow DHS inspectors at ports of 
entry to determine whether a passport properly identifies its 
bearer. This will combat terrorist imposters and prevent them 
from defeating lookout lists on which they are posted. Second, 
it will make passports harder to alter or counterfeit. Third, 
in conjunction with the planned installation of scanners at 
ports of entry to read the passports, DHS can track the arrival 
and departure of travelers and identify those who overstay 
their visas.
    I would like to clarify for the record that the Border 
Security Act of 2002 required only that Visa Waiver Program 
countries issue passports for which the biometric identifiers 
and document security standards met ICAO standards and that 
were machine-readable. There was no requirement for a chip to 
be placed in a passport or in a visa in that Act. Nor did the 
legislative history nor any subsequent action by the Committee 
on the Judiciary or any part of the body of Congress call for a 
chip to become an integral part of the travel document security 
required for Visa Waiver Program countries. The act addressed 
the machine-readable ICAO standards that were in place at the 
time of passage in 2002.
    The ``chip standards'' referred to in newspaper accounts 
which are effecting the delay are those established by the 
European Union, to apply to its member countries. If a visa 
waiver country decides to employ a chip as a security 
improvement to confirm identity, then the law requires it to 
comply with ICAO standards, but it is not currently a 
requirement of U.S. law or of published U.S. Government rules 
of the program.
    Once the chip technology is refined and becomes a reliable 
and proven means to improve passport security, it will be a 
useful and welcome tool for port of entry inspections. But a 
chip is not essential to enforcing the requirement established 
by Congress. The Border Security Act required only a biometric 
identifier and document security that met, once again, current 
ICAO standards at that time. The European Union's efforts to 
improve security are laudable, but the deadline is important to 
assure the public that we're serious about border security and 
about protecting against future terrorist attacks potentially 
launched from Europe.
    Belgium has been issuing a viable passport since 2004 that 
appears to fully comply with the act's requirements. Our first 
witness today will provide us with the details of Belgium's 
success story.
    The U.S. needs to establish specific and unambiguous 
requirements for biometric identifiers on travel documents 
presented by foreign governments in the Visa Waiver Program. It 
is the responsibility of the Department of Homeland Security to 
set those requirements and notify Visa Waiver Program countries 
what it is we will expect of them on October 26 of this year.
    Mr. Hostettler. At this time I turn and recognize the 
gentlelady from Texas, the Ranking Member of the Subcommittee.
    Ms. Jackson Lee. I thank the Chairman for holding this 
hearing sufficiently in time that we can have a collective and 
reasoned voice on this question, and hopefully we will have 
sufficient insight from the witnesses to recognize that 
although we have a responsibility for homeland security in this 
Subcommittee as it relates to our responsibilities and benefit, 
we also have the responsibility, I think, to keep an open 
understanding of the non-immigrant program, which includes the 
Visa Waiver Program, and at the same time we can acknowledge 
that we have made some steps of success toward securing the 
homeland. Therefore, this should allow us, although we're not 
perfect, to have some latitude, some reason to the expectation 
that all of the countries that are presently in the Visa Waiver 
Program will meet the necessary deadline, but at the same time 
that we would wish to deny them that right, longstanding allies 
and friends, simply because we were not willing to extend a 
deadline.
    The Visa Waiver Program allows nationals from 27 countries 
to enter the United States as non-immigrant visitors for 
business or pleasure without first obtaining a visa from a 
United States consular office. This facilitates international 
travel and commerce and caseloads in consular offices. The 
Enhanced Border Security and Visa Entry Reform Act of 2002 
mandated that by October 26, 2004, the Government of each VWP 
country would have to certify that it had established a program 
to issue machine-readable passports that are tamper-resistant 
and incorporate a biometric identifier.
    We extended that deadline to October 26, 2005, last year. I 
think we were frugal and cautious by extending it by just a 
year, not necessarily determining that it would take only a 
year for them to complete their task and their assignment. The 
extension was necessary to avoid potential disruption of 
international travel and to provide the international community 
adequate time to develop viable programs for producing a 
biometrically enabled passport.
    According to the State Department, only 14 of the 27 VWP 
countries expect to comply with the revised deadline. Brunei, 
Finland, Ireland, Portugal, Spain, Switzerland, and the United 
Kingdom expect to come into compliance several months after the 
deadline. Long delays are expected by France, Japan, Denmark, 
Italy, Liechtenstein, and the Netherlands. Most of the 
countries that expect to meet the deadline are small countries 
that have small passport production numbers and centralized 
production processes. Hooray for them. Those with large 
passport production numbers are the ones who have the greatest 
difficulty in meeting the deadline. Many of them, for those who 
recognized some of the needs in Iraq early on, did coalesce 
with this nation in Iraq. The countries include France, Japan, 
Germany, and the United Kingdom, make up more than 80 percent 
of the VWP travelers, and as we well know, the United Kingdom, 
Great Britain, was an ally in the war in Iraq.
    If the deadline is not extended, the VWP countries that 
fail to meet it will lose the privilege of participating in the 
program, and the nationals of those countries will need visas 
to enter the United States. The State Department has estimated 
that this would result in a sudden need to process millions of 
additional visas which would impose a severe challenge on its 
resources. I am concerned about the effect that even a 
temporary disruption of the Visa Waiver Program would have on 
the international tourist industry. In 2002, approximately 13 
million international visitors entered the United States on the 
Visa Waiver Program. They spent nearly $40 billion and 
supported the jobs of hundreds of thousands of American 
workers. A disruption to the Visa Waiver Program would 
discourage international visitors. Many of them would choose to 
travel to other international destinations.
    I am particularly concerned about the effect that this 
might have on the State of Texas. In the year 2000, Texas 
received revenue from the international tourist industry that 
totaled $3,751.3 million. This included $410.6 million in 
public transportation that was $3 billion, $111 million on 
automobile transportation, $1 million on lodging, and $731 
million on--$1 billion on lodging and $731 million on food 
services, 320 on entertainment and general trade.
    Also, the technology for the biometric feature needs to be 
fully developed and tested before it is put into use. I am 
afraid that rushing the VWP countries into compliance could 
result in passports that have unreliable biometric identifiers 
which will not provide the expected increase.
    Mr. Chairman, I think it is important that we hold this 
hearing. I think it is important that we make the statement 
that we are serious. It is equally important that we void or 
make prohibitive the ability for terrorists to come on our 
soil. That is the first line of defense. It is also important 
that we have balance, recognize our allies, and work with our 
allies to ensure that they participate in this very important 
program.
    As you well know, we have implemented the US-VISIT program 
that collects fingerprints electronically and compares 
individuals to a U.S.--to a watch list. The Advanced Passenger 
Information System provides information on international 
visitors before they arrive, and these efforts are augmented by 
United States law enforcement and intelligence operations. 
Nevertheless, I want the biometric requirement to be met as 
soon as possible. I would only hope that we would extend or 
look at extending these in a reasonable fashion, that we will 
listen to the witnesses as they provide us insight on this 
very, very important question. Security is important, and we 
must do so in the current atmosphere of the 21st century with a 
number of our allies and those who have been part of the 
exchange in the United States in a fair and admirable way.
    With that, I yield back.
    Mr. Hostettler. I thank the gentlelady.
    Without objection, all Members' statements, opening 
statements, will be made a part of the record, including an 
opening statement by the Chairman of the Full Committee, Mr. 
Sensenbrenner, who had wanted to be here today, but his 
schedule overtook him, and he most definitely regrets not being 
able to make it. This is an issue that is of tremendous 
importance to the Chairman personally and was the subject of an 
extensive hearing in the recent past in the Full Committee.
    Mr. Hostettler. At this time I would like to introduce the 
members of our panel.
    Rudi Veestraeten was appointed Director General for 
Consular Affairs, Belgian Ministry of Foreign Affairs, on 
December 20, 2002. Before taking up his new position, Mr. 
Veestraeten served in Belgian diplomatic missions in Niamey, 
Sofia, Bangkok, Nairobi, and Washington, D.C. He also held the 
position of Advisor to the Belgian Minister of Foreign Affairs 
between 1997 and 1999. Mr. Veestraeten has successfully 
reorganized Belgian passport issuance to improve its security. 
In fact, Belgium obtained the 2003 Interpol award for the best 
and most secure passport in the world. Mr. Veestraeten schooled 
in Roman languages at the University of Leuven in Belgium, and 
his wife, Mireille, and their two daughters live with him in 
Ulbeek, Belgium. Welcome, Mr. Veestraeten.
    On March 4, 2005, Elaine Dezenski was appointed Acting 
Assistant Secretary for Policy and Planning within the Border 
and Transportation Security Directorate, U.S. Department of 
Homeland Security. Ms. Dezenski joined BTS from the 
Transportation Security Administration. Prior to joining the 
TSA, Ms. Dezenski served as a special assistant to the 
Administrator of the Federal Transit Administration. Ms. 
Dezenski also served as a Brookings Institution LEGIS fellow 
for Congressman Sherwood Boehlert. She holds a master's degree 
in public policy from Georgetown University and a bachelor's 
degree in international relations from Wheaton College, Norton, 
Massachusetts.
    Richard Skinner is the Acting Inspector General at the 
Department of Homeland Security. He has also served as the 
Acting Inspector General at the Federal Emergency Management 
Agency. Mr. Skinner went to FEMA in 1991 from the U.S. 
Department of State where he served as the Inspector General's 
representative to the Arms Control and Disarmament Agency. 
Prior to that, Mr. Skinner managed the Inspector General's 
International Trade Division at the U.S. Department of 
Commerce. Mr. Skinner holds a B.S. degree in business 
administration with an MPA degree from George Washington 
University.
    Joel F. Shaw is President and CEO of BioDentity Systems 
Corporation. He is a recognized expert in the fields of 
official documents of identity, related technology systems, and 
border clearance systems. Mr. Shaw is the convener of the 
International Standards Organization Working Group responsible 
for development and maintenance of Standards for Machine 
Readable Travel Documents. He also coordinates and provides 
ISO's liaison with the International Civil Aviation 
Organization.
    Will the witnesses please rise to take the oath?
    [Witnesses sworn.]
    Mr. Hostettler. Thank you. You may be seated.
    Please let the record reflect that the witnesses responded 
in the affirmative.
    Mr. Veestraeten, please begin your testimony. We have a 
light system that is for a total of about 5 minutes. Your 
entire written statement will be made a part of the record. We 
very much appreciate your presence here today and look forward 
to your testimony.

 TESTIMONY OF RUDI VEESTRAETEN, DIRECTOR GENERAL FOR CONSULAR 
          AFFAIRS, BELGIAN MINISTRY OF FOREIGN AFFAIRS

    Mr. Veestraeten. Mr. Chairman, Ranking Member Jackson Lee, 
and distinguished Members of the Subcommittee, I want to thank 
you for giving me the occasion to testify before this 
Subcommittee. I presume that I have been invited because today 
Belgium is the first and the only country which completed the 
rollout of an ICAO-compliant electronic passport. I would like 
to share with you our views and achievements.
    I'm going to make some comments as a complement to the 
notes I deposited earlier. I would like to apologize for any 
linguistic flaws in my wording, both in the notes and before 
the esteemed Subcommittee. Although I had the honor and the 
pleasure to serve here in Washington, D.C., I never really 
achieved the level of fluency and accuracy, but my daughters 
did while staying here a couple of years ago.
    However, I would very much like to highlight some aspects 
of the Belgian achievements in the field of passport security. 
I truly believe we did a good job as a middle-sized country, 
and even better securing our national passports, after we 
received the Interpol award for having realized the world's 
best passport in 2003. This was, to be precise, sometime before 
we decided to take our national travel document a step further 
and to include the new technology of the computer chip into the 
already fine passport.
    First of all, I would like to refer to the note regarding 
our passports, which includes technical specifications. We 
wanted a solid solution, surviving genuine Belgian travelers' 
behavior, and I'm confident Belgians don't behave better or 
worse than other citizens. So we developed tests, including 
chemical exposures to set a new standard. Our passport passed 
all of these tests, of course.
    Secondly, we did not only deploy a passport but also 
passport readers, not only classical readers you plug into a 
computer, but also a new, affordable, mobile reader. I believe 
our approach based on an off-the-shelf solution is also 
innovative.
    The Belgian federal police, in charge of border control, 
already deployed these readers in the Brussels airport, in the 
port of Antwerp, and we are, of course, very much willing to 
share our experience in this field with all the partners. I had 
several meetings this week with my American colleagues in this 
regard.
    In the third place, I want to stress how much we want to 
make sure that new high-tech passports do not fall in the hands 
of the wrong persons. Belgium has developed over the past 
decennium a quite unique system of registration of its 
citizens. When I had the honor to serve in your country some 
years ago, I appeared before this Congress' standing Committee 
on Citizenship and Immigration on November 16, 2001, to testify 
about the national identity cards and the Belgian registration 
process of citizens. You might find it useful to consult that 
information, which is still valid today. The system has not 
changed since then.
    Finally, and not least, I also wanted to make sure that 
lost and stolen passport information is readily available to 
all concerned. This is why we developed a new approach to this 
problem. We published an Internet-based consultation tool. You 
can now check a given Belgian passport number against a daily 
updated list of stolen and lost documents and learn whether it 
has been reported stolen or lost or not. Nothing more, nothing 
less.
    I brought a fresh text today to this meeting on this new 
tool. The tool is still experimental, and this tool might be 
improved after input by our partners.
    We also offer a so-called web service to this--to our 
international partners to this tool, which means that others, 
like U.S. Immigration, can automate the consultation of this 
online list of lost and stolen passports. This new approach has 
been very well received by my American colleagues this week, 
and we are also willing to share this with all countries which 
are interested.
    Five minutes, Mr. Chairman, is not a long time, especially 
for a complex issue like passport security. I hope I made it 
clear that all the aspects I mentioned above are equally 
important and that my country has gone a long way to address 
them all. We did not just put a chip in the passport. We did a 
lot more.
    Now, Belgium is not alone in this, and it is a bit odd to 
see that we already have today around 170,000 ePassports in 
circulation, the number growing by 40,000 each month, and by 
the end of this year, Belgium alone will already have more than 
half a million passports with a chip in circulation. Currently, 
no country, except Belgium itself, has deployed ePassport 
readers. Of course, it is essential that we all build the 
capacity to read the chip.
    Belgium is not alone, I said. I am wearing a special tie 
today, a necktie, the tie of the Luxembourg Presidency of the 
European Union. Let it be the symbol of this message: that I 
truly believe that only an inclusive approach in which all 
well-meaning countries are involved and accepted can lead to 
better travel and passport security. With the authority of my 
achievements, I want to plead for inclusion and not for 
exclusion. It is not a good policy to leave countries out. We 
all face the same difficulties and challenges in Europe and 
outside Europe, and we can surely learn from each other.
    I want to conclude on this, an appeal for inclusiveness, 
for continued high standards for security, and for close 
cooperation between all countries involved.
    I want to thank you, Mr. Chairman, esteemed Members of the 
Committee, for this occasion to speak out.
    [The prepared statement of Mr. Veestraeten follows:]
                 Prepared Statement of Rudi Veestraeten


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Thank you, Mr. Veestraeten.
    Ms. Dezenski.

 TESTIMONY OF ELAINE DEZENSKI, ACTING ASSISTANT SECRETARY FOR 
    POLICY AND PLANNING, BORDER AND TRANSPORTATION SECURITY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Dezenski. Thank you, Mr. Chairman, Ranking Member 
Jackson Lee. I appreciate the opportunity to be here today. I'm 
going to talk a little bit in my oral remarks about combating 
illegal travel with a specific focus on lost and stolen 
passports, and we'll get to a nexus with VWP as well.
    First I'd like to request that my written testimony be 
submitted for the record. Thank you.
    Mr. Hostettler. Without objection.
    Ms. Dezenski. Thank you.
    Let me start by talking about the layered solution. DHS, in 
cooperation with the Department of State, and many of our 
international partners rely on a layered strategy to combat the 
threats of illegal travel, most significantly, of course, 
terrorist travel. In the air and sea environments, our approach 
to this problem begins well before a foreign national arrives 
in the U.S. through the transmission of advanced passenger 
information, and it continues as travelers seek admission at 
the border. It is completed upon exit where many foreign 
nationals are or will soon be subject to biometric exit 
procedures under the US-VISIT program.
    At the land border, we are completing implementation of US-
VISIT entry capabilities, implementing additional systems to 
verify a person's identity, exploring the use of technologies 
to automatically capture arrival and departure information, and 
we are developing new documentation requirements as part of our 
Western Hemisphere Travel Document Initiative. So there are 
many layers to this approach.
    Within this layered solution, we have also worked 
diligently to implement each of the IG's recommendations from 
its 2004 report on lost and stolen passports. Since the 
completion of that audit, DHS has taken action on each of those 
recommendations--there were eight--and all are now considered 
either closed or otherwise resolved. As a result of this 
effort, today when State or DHS receives information on lost or 
stolen passports, that information is entered into our lookout 
systems within 72 hours, but normally much faster than that. 
Information is primarily entered by State into their system 
called CLASS, or the Consular Lookout and Support System, and 
electronically transferred within an hour to the DHS 
Interagency Border Inspection System, or IBIS, which is at all 
of our ports of entry.
    Several actions can then take place. Our border inspectors 
have access to this information through IBIS at the primary 
inspection point. When we find a match that individual is given 
a mandatory secondary inspection. Those who attempt, knowingly 
or otherwise, to enter with a lost or stolen passport are not 
admitted to this country, no exceptions. And the false passport 
is confiscated and sent to CBP, to our new fraudulent document 
analysis. Again, no exceptions.
    In addition, the National Targeting Center will analyze 
this information to ensure that no one has already entered on 
that lost or stolen document. If we find that someone was 
admitted prior to our knowledge of that lost or stolen piece of 
information, the Investigation and Customs Enforcement 
Directorate initiates their investigation process immediately. 
And for all cases where we have a lost or stolen passport and 
there's potential of link to terrorist activity, we refer that 
case to the U.S. Attorney for prosecution.
    In order for the system to work, we need to obtain data 
from our international partners. State and DHS rely on dual 
reporting regimes to ensure that we obtain that type of 
information in a timely manner. First, we work with the 
international community to promote universal reporting of lost 
and stolen passports through the Interpol Lost and Stolen 
Document Database, thereby centralizing the way that that 
information is handled. To date, the U.S. has provided over 
500,000 such records on our lost and stolen data. We've 
excluded personal information for the holder, but have provided 
that information to help build that database. And we've 
obtained agreement from our G-8 partners to utilize the 
database for their information as well.
    In addition, statute now requires Visa Waiver Program 
countries to report lost and stolen blank passport information 
to us in a more timely manner. This requirement is in addition 
to the mandate that these countries begin issuing biometric 
passports by October 26, 2005. While scientific and technical 
challenges have contributed to slowing the implementation of 
the biometric requirements, we have received significant 
cooperation and moved forward on lost and stolen passport 
reporting issue. How a VWP country continues to handle this 
important responsibility is a critical test in our 
determination if a country should remain eligible for the 
program.
    DHS has recently concluded its review of the VWP program as 
mandated by the Enhanced Border Security and Visa Entry Reform 
Act of 2002, and a draft report to Congress is being prepared 
and finalized for transmission to the Hill. We look forward to 
briefing you further on this important effort once that report 
is cleared.
    As Secretaries Ridge and Powell indicated in their 
testimony last year, a clearly stated goal of the international 
community is to establish an integrated chip in the passport to 
verify both the biometric identifier and validity. DHS and 
State remain committed to this goal and more broadly to 
pursuing the best possible biometric solutions that can be 
adopted and utilized on an international basis.
    By implementing the IG's recommendations, improving our 
access and use of data, and strengthening the security features 
of the passport, we are creating important obstacles to 
terrorists and criminals who seek to circumvent our border 
control efforts. Many challenges remain, but we look forward to 
working with the Committee to ensure robust solutions are 
implemented as soon as practical.
    Thank you.
    [The prepared statement of Ms. Dezenski follows:]
                 Prepared Statement of Elaine Dezenski
    Chairman Hostettler and Ranking Member Jackson Lee and other 
distinguished Members, it is a pleasure to appear before you today to 
discuss the actions that the Department of Homeland Security (DHS) has 
taken to address the issue of the use of lost or stolen passports for 
illegal travel to the United States and minimize, if not eliminate, 
related security risks. I will also provide an overview of the steps 
taken to enhance the security of the Visa Waiver Program.
    DHS has taken a variety of actions to address concerns raised by 
the DHS Office of the Inspector General in its 2004 Report, 
specifically regarding the functions of the National Targeting Center 
(NTC), our efforts to detect fraudulent travel documents, and our US-
VISIT biometric screening system which helps to ``fix'' the identities 
of individuals entering and departing the United States by capturing 
biometric information at the time of inspection, comparing it to any 
biometric identification information previously collected during the 
visa issuance process and confirming it upon departure, when possible, 
through US-VISIT.
                            layered security
    DHS and DOS together have created a continuum of security measures 
that begins before individuals enter the United States. Identity 
verification measures begin overseas and continue upon entry and exit 
from this country. This layered system, described below, includes the 
secure storage of biometric and biographic data and uses travel and 
identity documents to access that information for identity verification 
and watchlist checks.
    Advance Passenger Information (API) data transmitted by air 
carriers and cruise ships is queried against the lookout databases at 
the NTC prior to the travelers' arrival in the United States. The NTC 
has access to additional information to assist in the analysis of the 
API and identify potential lookout subjects, holders of passports 
reported as lost or stolen, criminals, and other immigration violators. 
In addition, biometric and biographic information is also checked 
against various databases linked under US-VISIT which contain visa 
issuance information, terrorist (through the Terrorist Screening 
Database (TSDB) and criminal watchlists, and immigration status 
information through US-VISIT. That information allows a Customs and 
Border Protection (CBP) Officer at the border to verify the identity of 
the traveler and check terrorist, criminal, and immigration violator 
watchlists.
    Since January 5, 2004, 20.5 million entries have been recorded 
through US-VISIT and 471 criminals and immigration violators have been 
denied entry based on biometric information. On September 30, 2004, we 
began enrolling nationals from Visa Waiver Program (VWP) countries in 
US-VISIT when they travel to the United States and on December 29, 
2004, US-VISIT was rolled out to the 50 busiest land border ports of 
entry.
    We are also reviewing how travel documents are produced and 
reviewed by foreign governments so that Consular Officers at embassies 
and consulates and Border Inspectors at the ports of entry can better 
detect altered and counterfeit documents, improve and expand watch 
lists and how they are vetted, and explore ways to share data with our 
counterparts that can help identify and thwart those attempting to use 
such documents to enter the United States illegally, particularly 
terrorists. Additionally, we continue to promote appropriate security 
and privacy controls to protect the information contained within our 
databases and on the travel documents we issue.
                     lost and stolen passport data
    DHS, in cooperation with the Department of State (DOS), 
international organizations and our allies abroad, is making strides to 
address the issue of lost and stolen passports. First, here at home, as 
information on lost and stolen foreign passports becomes available, DOS 
and DHS' CBP personnel officers enter this information into the 
government's lookout systems within 72 hours, as required by the 
Enhanced Border Security and Visa Entry Reform Act (EBSA) of 2002. CBP 
incorporates lost and stolen passport information into its systems to 
aid in the detection and interception of persons using lost and stolen 
documents.
    Second, across the globe, we are making headway in our efforts to 
encourage governments to collect and share data on lost or stolen 
passports. International border control authorities traditionally seek 
timely and accurate information concerning the validity of travel 
documents presented at embassies and consulates and at ports of entry. 
In most cases, countries are able to recognize the misuse of their own 
documents. However, because of concerns about the use of personal data, 
many nations have been reluctant to share data on lost or stolen travel 
documents with other governments or international agencies. Through the 
efforts of the DOS and the Department of Justice, the United States has 
taken the lead in providing information on lost and stolen passports, 
with over 500,000 records of lost and stolen passports provided to the 
Interpol's lost and stolen document database, which is available to 
border authorities worldwide. Many other countries are doing the same 
and efforts are under way internationally to enhance such exchanges of 
information. At the June 2004 G8 Summit, G8 partners agreed to a U.S. 
proposal to start providing information on lost and stolen passports to 
the Interpol database by December 2004. Some European Union countries 
have started providing comprehensive information on lost and stolen 
passports to Interpol. We want to advance this effort beyond the G8 and 
encourage all countries to submit relevant information to the Interpol 
database. We are promoting a comparable initiative among the APEC 
economies to develop a Regional Movement Alert System.
    Similarly, on a bilateral basis, we worked with our colleagues at 
DOS to exchange information with the Government of Australia on lost 
and stolen passports. A bilateral agreement--the first of its kind--was 
just signed to allow bilateral exchange of lost and stolen passport 
information.
               deterring the use of fraudulent documents
    In the border and immigration enforcement arenas, biometric 
identifiers are tools that help prevent the use of fraudulent 
identities and travel documents. The purpose of the biometric 
identifier is to verify a person's identity in order to run his/her 
information against Terrorist Lookout or Watchlist data, to do a 
criminal history check against extracts from the FBI's IAFIS system and 
to ensure that an individual cannot apply and/or be granted benefits 
under an assumed identity. Biometric visas issued by the DOS to 
travelers to the United States allow one-to-one matches, to verify that 
the person presenting the visa is the person who was issued the visa, 
and one-to-many matches, to ensure that the bearer is not the subject 
of a biometric lookout or enrolled in the system under another name. 
Like the biometric visa process at time of visa issuance, US-VISIT 
enrollment ``fixes'' a person's identity at the port of entry. When a 
VWP traveler enrolls in US-VISIT, the person's fingerprints are 
electronically linked to the passport in the US-VISIT database thus 
preventing another person from fraudulently using that passport at a 
port of entry with US VISIT by freezing identities at the border and 
ensuring that the person is not enrolled under another name.
    While advances in technology allow our dedicated and hardworking 
CBP Officers to examine and validate documents presented for reentry, 
that same technology also enables the perpetrators of fraud to produce, 
relatively inexpensively, high-quality fraudulent documents. Forgers 
and counterfeiters can produce high-quality fake birth certificates and 
driver's licenses with off-the-shelf software programs and materials 
that are difficult to detect without sensitive instruments and 
sufficient time to examine them.
    Our CBP Officers are also charged with detecting look-a-likes or 
impostors who attempt to use valid documents which belong to another 
person. This is one of the fastest growing phenomena in travel document 
abuse. Document vendors solicit genuine, unaltered documents and match 
them up with ``look-a-likes.'' DHS' Immigration and Customs Enforcement 
(ICE) has developed a training program to detect impostor documents, 
which it has conducted for both U.S. and foreign immigration and border 
officers around the world.
                       national targeting center
    The NTC is primarily staffed by CBP. The NTC staff consists of CBP 
Officers and field analysis specialists who are experts in passenger 
and cargo targeting for air, sea, and land operations in the inbound 
and outbound environments. The NTC develops tactical targets--
potentially high-risk people and shipments that should be subject to 
additional scrutiny by CBP personnel--and it develops these targets 
from raw intelligence, trade, travel, and law enforcement data.
    The NTC has access to over 20 critical anti-terrorism, border 
security and law enforcement databases, including the Terrorist 
Screening Data Base (TSDB) maintained by the Terrorist Screening Center 
(TSC), and receives strategic intelligence daily from CBP's Office of 
Intelligence, our IAIP Directorate, and other law enforcement and 
intelligence entities. The NTC includes representatives from ICE, the 
FBI, the intelligence community, the Transportation Security 
Administration (TSA), US-VISIT, the Department of Energy, the 
Department of Agriculture, the Food and Drug Administration, and the 
United States Coast Guard.
    NTC supports DHS field elements, here and overseas, including the 
Visa Security Program, and the Immigration Advisory Program, currently 
operating at Schiphol Airport in Amsterdam and Warsaw, Poland, where 
teams of CBP officers are deployed to work with local authorities in 
preventing the onward movement of people identified as attempting to 
travel using fraudulent documents or presenting a security threat to 
the carrier or passengers on international flights destined to the U.S 
CBP Officers at all of our ports of entry,.
    During the period of heightened alert in December 2003, the NTC 
played a pivotal role in analyzing advanced passenger information 
system (APIS) manifests related to several international flights that 
were determined to be at risk, in order to ensure that passengers on 
board did not pose risks to the flights.
    DHS is committed to improving the current collection of passenger 
manifest information over the coming months by standardizing entry 
information formats, requiring departure information, and finalizing 
crew manifest requirements.
    The United States and the European Commission signed an 
international agreement on May 28, 2004 permitting DHS to access 
passenger name record (PNR) data to be used for screening passengers. 
PNR data is an essential tool allowing DHS to accomplish key goals. PNR 
data helps us make a determination of whether a passenger may pose a 
significant risk to the safety and security of the United States and to 
fellow passengers on a plane and PNR data is essential to terrorism and 
criminal investigations by allowing us to link information about known 
terrorists and serious criminals to co-conspirators and others involved 
in their plots, as well as to potential victims. Sometimes these links 
may be developed before a person's travel, but at other times these 
leads only become available days or weeks or months later. In short, 
PNR data helps DHS fulfill its anti-terrorism and law enforcement 
missions and allows for more efficient and timely facilitation of 
travel for the vast majority of legitimate travelers to and through the 
United States. At this time, CBP is receiving PNR data, which is 
enabling us to link information about known terrorists.
                          visa waiver program
    The Visa Waiver Program (VWP) currently enables citizens of 27 
countries to travel to the United States for tourism or business for 
ninety days or less without obtaining a visa. While the VWP encourages 
travel and trade, it is also an attractive means of entering the United 
States for those wishing to avoid visa-security checks conducted at 
U.S. consulates abroad. To mitigate the vulnerability posed by the 
misuse of the VWP as of September 30, 2004, DHS began to enroll VWP 
applicants in US-VISIT. This step narrowed security gaps by providing 
biometric watchlist checks and identity verification for subsequent 
visits to the United States.
    By law, DHS, in consultation with DOS, is required to review all 
participating countries periodically for continued participation in the 
VWP and report to Congress. Several countries (Slovenia, Belgium, 
Italy, Portugal, Uruguay, and Argentina) were reviewed by the legacy 
Immigration and Naturalization Service (INS), and two (Argentina (2002) 
and Uruguay (2003)) were removed from the program. DHS, in coordination 
with the Department of State, is finalizing the current reviews for the 
remainder of the countries. This is the first comprehensive review of 
the countries and will form the ``baseline'' for future reviews.
    In addition, as DHS and DOS conduct the required reviews of 
countries participating in the Visa Waiver Program, each country has 
provided detailed information about lost and stolen passports, their 
law enforcement response to such incidents, and efforts made to tighten 
distribution and document security processes. How a country handles 
this key issue will be an important factor in how DHS, working with 
interagency teams, determines whether VWP countries remain eligible for 
the program. These reviews are being finalized and the Report to 
Congress is being prepared.
    The Enhanced Border Security and Visa Reform Act (EBSA) of 2002 
required that, beginning on October 26, 2004, VWP countries each 
certify that they have a program in place to issue to their nationals 
machine-readable passports that are tamper-resistant and incorporate 
biometric and document authentication identifiers that comply with 
International Civil Aviation Organization (ICAO) standards as a 
condition of continued participation in the VWP program. The law also 
required that visitors coming to the United States under the VWP 
present machine-readable, tamper-resistant passports that incorporate 
biometric and document authentication identifiers, if the passport is 
issued on or after October 26, 2004. Furthermore, DHS is required to 
install equipment and software at all ports of entry to allow biometric 
comparison and authentication of these passports. Prior to the October 
26, 2004, deadline, and at the request of the Administration, Congress 
enacted an extension of the deadline for both VWP travelers to use 
biometric passports and for the U.S. Government to install the 
equipment to read the passports. The current extension deadline is 
October 26, 2005.
                               conclusion
    We have made much progress to deter the travel of individuals using 
fraudulent or stolen passports and other travel document and identify 
potential travel facilitators. Our colleagues at DOS have also made 
great strides in developing new electronic passports that include 
internationally developed technology. In addition to the initiatives 
described above, we are working aggressively with our USG colleagues, 
and international partners to improve standards for travel documents, 
enhance aviation safety and port security, and speed the exchange of 
identifying information.
    I would be happy to answer any questions you have at this time.

    Mr. Hostettler. Thank you, Ms. Dezenski.
    Mr. Skinner.

TESTIMONY OF RICHARD L. SKINNER, ACTING INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Skinner. Thank you, Mr. Chairman, Ranking Member----
    Mr. Hostettler. Could you push the button on your 
microphone?
    Mr. Skinner. Let's do that.
    Mr. Hostettler. Thank you.
    Mr. Skinner. Okay. Thank you. Mr. Chairman, Members of the 
Subcommittee, I'm pleased to be here today. I've provided the 
Subcommittee with a written statement for the record. I'll 
summarize it in these remarks, if I may.
    In December 2004, our office issued an inspection report, 
``A Review of the Use of Stolen Passports from Visa Waiver 
Countries to Enter the United States.'' The Visa Waiver Program 
began as a pilot program in 1986 and has evolved into a 
permanent program in which 27 nations participate. The program 
enables most citizens of these countries to travel to the 
United States for tourism or business for 90 days or less 
without obtaining a visa. From the beginning, the program 
involved the balancing of security risks and benefits to 
commerce, tourism, foreign relations, and the workload of the 
Department of State.
    Virtually all of those familiar with the Visa Waiver 
Program told us that lost and stolen passports are the greatest 
security problem associated with the Visa Waiver Program. In 
response to these concerns, we examined all reported stolen 
passports from six visa waiver countries--France, Spain, 
Germany, Portugal, Belgium, and Italy--for a 5-year period, 
February '98 to February 2003. There were 3,987 reported 
passports stolen; some were presented 176 times at American 
ports of entry.
    We concluded that our country was vulnerable because of 
gaps in our treatment of lost and stolen passports. To be 
specific, the Department did not have a process to check lost 
and stolen passport information against entry and exit 
information to determine the scope of fraud. Upon receipt of a 
new report that passports had been stolen, it did not check to 
determine whether they had been used already to enter the 
United States, nor did it have a formal procedure to notify the 
Bureau of Immigration and Customs Enforcement of the use of a 
stolen passport in order to facilitate an effort to apprehend 
the traveler.
    Also, there continue to be problems with how the United 
States obtains lost and stolen passport information from visa 
waiver governments and the manner in which that information is 
collected. In at least one foreign country that we visited, 
there was uncertainty over how to report thefts of passports to 
the United States.
    Even when lost and stolen passports were reported to the 
United States and entered into the U.S. lookout systems, they 
still may be used to enter through our ports of entry or to the 
U.S. It made little difference whether a passport had been 
listed in a lookout or not. Travelers using stolen passports 
that had not been posted to the lookout were admitted 81 
percent of the time, 79 times out of 98 attempts. Travelers 
using passports that had been posted to the lookout were 
admitted 73 percent of the time, or 57 times out of 78 
attempts. Thirty-three of these occurred after 9/11. Most 
disturbing, some came from stacks of stolen passports that were 
associated with events possibly linked to al Qaeda.
    Some stolen passports were used multiple times to enter the 
U.S., even after being posted on the lookout system. Due to the 
limited data collected by inspectors at ports of entry, we were 
often unable to determine the inspector's rationale for having 
admitted the aliens.
    We made seven recommendations to address the 
vulnerabilities that we noted. The Department agreed with each 
of our recommendations.
    One of the most significant steps taken by the Department 
is the processing of visa waiver travelers through the US-VISIT 
program. This will permit additional screening, identification, 
and extra control features for all travelers from visa waiver 
countries.
    A second and equally important concern was the ill-fated 
process by which information about a country's stolen and lost 
passports are reported and disseminated among other countries. 
We are, therefore, pleased to learn of the Interpol plan to 
consolidate and to report lost and stolen passports. This 
initiative should be of great benefit when fully implemented 
and when all nations participate.
    Even with the completion of the corrective actions that we 
recommended, the Visa Waiver Program will always pose some 
security risk. The fundamental premise of the program is that 
millions of people, about whom we know very little, can be 
exempted from the more vigorous--or rigorous visa procedures 
and permitted to enter the United States. As we said in our 
Visa Waiver Program report--that was dated in--that was issued 
in April 2004, ``The visa is more than a mere stamp in a 
passport. It is the end result of a rigorous screening process 
that the applicant must undergo before entering the United 
States.'' By the end of the U.S.--or by the end of the visa 
interview, the Department of State has collected and stored 
considerable information about the traveler and the traveler's 
planned journey. It has introduced biometric features into its 
visas, shares data from its visa records with our port of entry 
systems, and significantly increased the percentage of 
applicants subject to a careful interview. In contrast, the 
visa waiver traveler is interviewed briefly, and the passport 
examined, again briefly, by an inspector who may be--or may not 
be familiar with passports from the issuing country.
    Mr. Chairman, this concludes my remarks. I'll be happy to 
answer any questions you or the Committee may have.
    [The prepared statement of Mr. Skinner follows:]
                Prepared Statement of Richard L. Skinner
    Thank you, Mr. Chairman and members of the Subcommittee:
    I'm pleased to have this opportunity to appear before you today to 
discuss the findings of our December 2004 review of the use of stolen 
passports from Visa Waiver countries to enter the United States and the 
threat that stolen Visa Waiver Program (VWP) passports pose to that 
program. More broadly, this is a threat posed to our national security 
as well. Copies of the report have been provided to the Subcommittee 
and are available to the public on our website.\1\
---------------------------------------------------------------------------
    \1\ ``A Review of the Use of Stolen Passports from Visa Waiver 
Countries to Enter the United States'' (OIG-05-07) December 2004.
---------------------------------------------------------------------------
What did we inspect?
    The VWP began in 1986. It enables most citizens from 27 countries 
to travel to the United States for tourism or business purposes for 90 
days or less without obtaining a visa. From the beginning, the program 
involved a balancing of security risks and benefits to commerce, 
tourism, foreign relations, and the workload of the Department of 
State. In late 2003 and early 2004 we studied the security implications 
of the visa waiver program and released a report in April 2004. Copies 
of that report also have been provided to the Subcommittee and are 
available to the public on our website.\2\
---------------------------------------------------------------------------
    \2\ ``An Evaluation of the Security Implications of the Visa Waiver 
Program'' (OIG-04-26) April 2004.
---------------------------------------------------------------------------
    Virtually all those familiar with the Visa Waiver Program told us 
at that time that the lost and stolen passport problem is the greatest 
security vulnerability associated with it. During the course of our VWP 
review we obtained documents that recorded instances in which blank, 
bona fide passports from VWP countries were stolen and, as determined 
from their serial numbers, later used to enter the United States, 
sometimes on multiple occasions. In some instances, entry was permitted 
even after the stolen passport had been posted in the lookout system. 
We therefore began a subsequent inspection of the specific problem 
posed by stolen VWP passports and issued a report in late December 
2004.
What did the data show?
    We examined all reported stolen passports from six VWP countries--
France, Spain, Germany, Portugal, Belgium, and Italy--for a 5-year 
period--February 10, 1998, to February 12, 2003. There were 3,987 
reported passports stolen; some were presented 176 times at Ports of 
Entry (POE).
    Aliens applying for admission to the United States using stolen 
passports had little reason to fear being caught and usually were 
admitted, even if the stolen passport had been posted previously to 
CBP's lookout systems. Also, when DHS received new reports of stolen 
passports, it listed the passport number into its lookout system for 
future protection but did not check to determine whether a traveler had 
already used any of the newly reported passports. Finally, the 
Department of Homeland Security (DHS) did not have a sound procedure to 
ensure that when CBP records show a successful entry using a stolen 
passport, the event is referred to Immigration and Customs Enforcement 
(ICE) investigators to seek out and apprehend the user.
    It made little difference whether the passport had been listed in a 
CBP lookout or not. Travelers using stolen passports, which had not 
been posted to the lookout, were admitted 81% of the time; travelers 
using stolen passports that had been posted to the lookout were 
admitted 73% of the time.
    With respect to travelers whose passports had already been posted 
to a lookout as stolen, half were referred to ``secondary inspection'' 
for a more thorough examination. However, most referrals were for other 
reasons. The use of a stolen passport was not a recorded basis for the 
referral. Thus, after examination in secondary, half of the travelers 
were permitted entry. Some passports were used successfully multiple 
times to enter, despite being posted on the lookout system. We could 
not determine the inspectors' rationale for admitting the aliens with 
lookouts for the stolen passports. The records of the secondary 
inspections often were nonexistent or so sketchy that they were not 
useful.
    Of the admissions on stolen passports, 33 occurred after September 
11, 2001. Most disturbing, some passports that were used successfully 
came from blocks of stolen passports, which were associated with events 
or locations possibly linked to Al Qaeda.
    DHS did not have a process to check lost and stolen passport 
information against entry and exit information. Upon receipt of a new 
report that passports have been stolen, CBP did not check to determine 
whether they have been used to enter the United States, nor did it have 
formal procedures to notify ICE of the use of a stolen passport so that 
an effort may be initiated to apprehend the traveler.
We recommended that CBP:
        1.  Require inspectors to refer aliens to secondary inspections 
        when the passports are the subjects of lookouts;

        2.  Require that inspectors record in detail the results of the 
        secondary inspections and justifications for subsequent 
        admissions;

        3.  Require that a supervisor review and approve an inspector's 
        decision to admit an alien who was the subject of a lookout, 
        and that the review be recorded as part of the secondary 
        inspections record;

        4.  Initiate routine reviews of admission records to identify 
        prior uses of stolen passports; and,

        5.  Report information on the successful use of stolen 
        passports to enter the United States to ICE for investigation.
We recommended that ICE:
        1.  Develop procedures to investigate, locate, and remove from 
        the United States persons that have used stolen passports to 
        gain entry to the country and to report the outcomes of its 
        investigations to CBP; and,

        2.  Investigate the activities while in the United States of 
        the aliens that used certain stolen passports and determine 
        their current whereabouts.

    CBP and ICE concurred with all of our recommendations and plan 
appropriate corrective actions. While our office believes that these 
actions have been undertaken, we have not performed any formal 
compliance review.
    One concern noted in our report is international in scope, and will 
require an international solution, i.e., the ill-defined process by 
which each country's stolen and lost passport information is reported 
and disseminated among all the other countries. The department's 
information about stolen passports is often incomplete. It's our 
understanding that INTERPOL plans to expand and regularize the 
reporting of lost and stolen passports. This initiative, when fully 
implemented with all nations participating, should permit automatic 
checking at the port of entry to determine whether the traveler is 
presenting a lost or stolen passport.
    Even with the completion of the corrective action we recommended, 
the VWP will always pose some security risk. The fundamental premise of 
the program is that millions of persons, about whom we know little, can 
be exempted from DOS' ever more rigorous visa procedures and permitted 
to board U.S.-bound planes. As we said in our report, ``The visa is 
more than a mere stamp in a passport. It is the end result of a 
rigorous screening process the bearer must undergo before travel.'' By 
the end of the visa interview DOS has collected and stored considerable 
information about the traveler and the traveler's planned journey. DOS 
has introduced biometric features into its visas, shares data from its 
visa records with DHS port of entry systems, and significantly 
increased the percentage of applicants subject to a careful interview. 
In contrast, the visa waiver traveler is interviewed briefly, and the 
passport examined, again briefly by an inspector who may be unfamiliar 
with even valid passports from the issuing country.
    One of the most significant corrective actions responsive to the 
concerns stated in our report is the processing of visa waiver 
travelers through U.S. Visitor and Immigrant Status Indicator 
Technology (US-VISIT). As implemented in December 2003, US-VISIT 
excluded visa waiver travelers from its scope. We strongly recommended 
that visa waiver travelers be added to the US-VISIT program because of 
the additional screening, identification, and exit control features it 
offers. On April 21, 2004, DHS Secretary Ridge announced that BTS would 
begin to process visa waiver travelers through US-VISIT by September 
30, 2004.
    This brings me to another pressing border security matter much in 
the news recently--our land borders.
US-VISIT at the Borders
    In February 2005 we released our inspection report on the 
implementation of US-VISIT at land border ports of entry.\3\ The report 
was written because legislation mandated the implementation of an 
automated, integrated entry exit system at the 50 highest volume land 
ports of entry by December 31, 2004. We reviewed efforts undertaken by 
the US-VISIT Program Office to meet this deadline, develop 
implementation and deployment plans, modify existing facilities, 
conduct or plan pilot testing of systems and new technology, and 
achieve program goals.
---------------------------------------------------------------------------
    \3\ ``Implementation of the United States Visitor and Immigrant 
Status Indicator Technology Program at Land Border Ports of Entry'' 
(OIG-05-11) February 2005.
---------------------------------------------------------------------------
    The examination of entering travelers at land POEs presents special 
problems. For one, CBP officers do not have an opportunity to prescreen 
using aircraft and ship passenger manifests. At land POEs there is less 
use of automation to check watch lists and other databases as part of 
the screening process. Indeed, name checks are not run at all on the 
vast majority of entrants. At present, travelers entering the United 
States at a land Port of Entry are only processed through US-VISIT if 
they enter on the basis of a visa. This is a very small percentage of 
travelers. The US-VISIT enrollment at land ports of entry will include 
approximately 2.7 % of the foreign visitor population. Why is this 
percentage so small? There are several reasons.
    Mexican Border Crossing Card (BCC) holders entering the United 
States are not likely to have their entry electronically captured, nor 
their identity verified. Most BCC cards are visually inspected by 
Customs and Border Protection (CBP) officers, not scanned at primary 
inspection. As a result, the BCC holder's identity is not verified nor 
the entry electronically recorded. BCC holders accounted for nearly 
43.8% of foreign national land border crossings in FY 2002.
    Visa exempt Canadians, who represent approximately 22% of foreign 
national land border crossings in FY 2002, are also exempt from US-
VISIT enrollment. They are able to gain admission to the United States 
by providing documents with limited information to verify their 
identities. The procedure is similar to that for BCC entrants--visa-
exempt Canadians are not likely to have their entry recorded, or their 
name checked against any watch list.
    Lawful permanent residents (holders of green cards) represent 32% 
of all foreign entrants. It is not standard procedure at a land POE to 
screen their names or record their entries.
    Together all of these categories of foreign entrants represent two-
thirds of the total at the land POEs; the other third are American 
citizens. American names are not screened against watch lists, and 
their entries are not recorded. The problem for border security is the 
possibility that someone is posing as an American, who is not an 
American. Detection of such imposters is weakened by the absence of 
automated and biometric checks.
    Thus, while US-VISIT offers potential, few travelers are actually 
covered. Moreover, while US-VISIT may have met minimum statutory 
requirements for implementation at land borders, it lacks the exit 
component necessary to identify those who overstay the terms of their 
admission.
    In addition, when trying to establish an individual's identity and 
determine admissibility, CBP officers currently perform queries of 
multiple information technology systems, many of which employ old 
technology and cannot interface. Achieving system integration becomes 
particularly important at land ports because inspection time is limited 
and there is no advance passenger information.
    Fully implementing a comprehensive solution of integrated systems, 
processes, and data for electronically tracking the pre-entry, entry, 
status management, and exit of all classes of foreign national visitors 
seeking admission to the United States will be a complex, 
technologically challenging, and expensive project that will not be 
realized for at least five to ten years.
Current Initiatives
    The recently enacted Intelligence Reform and Terrorism Prevention 
Act of 2004 requires that, by January 1, 2008, all travelers must 
provide evidence to establish identity and citizenship when entering 
the United States. Specifically, it requires that DHS develop and 
implement, as expeditiously as possible, a plan that requires a 
passport or other document, or combination of documents that 
sufficiently denotes the identity and citizenship for all travelers 
entering the United States. This includes not only those categories of 
individuals for whom documentation requirements had been waived 
previously but also U.S. citizens.
    This represents a bold step towards exercising better control of 
our borders. As the GAO clearly documented in its unclassified 
testimony GAO-03-713T ``Counterfeit Documents Used to Enter the United 
States From Certain Western Hemisphere Countries Not Detected'', and 
its Limited Official Use report GAO-03-782 ``Land Border Ports of 
Entry: Vulnerabilities and Inefficiencies in the Inspections Process'', 
our land borders are easily breached by imposters with phony birth 
certificates and driver's licenses.
    The dialogue over how to improve document integrity, to track 
arrivals and departures, to employ biometric identifiers, which 
biometric identifiers to rely on, and how to automate screening 
transactions will continue. So will our office's monitoring of these 
very important programs.
    Mr. Chairman, this concludes my remarks. I will be pleased to 
answer any questions the Subcommittee may have.

    Mr. Hostettler. Thank you, Mr. Skinner.
    Mr. Shaw.

   TESTIMONY OF JOEL F. SHAW, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, BIODENTITY SYSTEMS CORPORATION

    Mr. Shaw. Thank you, Mr. Chairman.
    As you indicated in your opening remarks, I am the Convenor 
of the International Standards Organization (ISO) Working Group 
that is working with the International Civil Aviation 
Organization. As Convenor, I'm coordinating ISO's contributions 
to the realization of the new biometric passport.
    Introducing a new passport, especially one integrating such 
a significant number of new technologies, while conforming to a 
new global standard and guaranteeing successful operation 
throughout the life of that passport is a very complex 
undertaking indeed. The level of complexity increases 
significantly in this case because a computer chip is being 
introduced into a traditional passport book, and that is being 
done to ensure that the data that is being carried for 
biometric identification is globally interoperable across the 
entire world. Our goal in doing this is to improve facilitation 
while strengthening security for international travel and 
border clearance.
    Governments involved in introducing the new biometric 
passport have been required to contribute to the creation of an 
extensive array and set of international specifications and 
standards. They have had to introduce enabling legislation to 
deal with the capture and processing and holding and sharing of 
biometric data on their citizens. They have had to become 
proficient in a range of new technologies which have been 
deemed until this effort began as completely foreign to 
passport fabrication. They have had to integrate a computer 
chip into the passport book and introduce new machines 
supporting assembly. They have had to introduce the entire 
technological and process components to support the biometric 
capture. And they have had to do the very same thing to ensure 
that the standardized security schema is in place to protect 
the data that is on that chip. And they have had to as well 
introduce new processes and technologies across their entire 
issuance process supporting passports.
    In addition, those people that are doing inspections have 
had to introduce processes and technology to realize a new 
process of inspection, one offering both improved facilitation 
and enhanced security.
    Any nation that would undertake such renewal of its 
passport and issuance operation would do so over many years. 
Visa waiver nations have been asked to undertake all of this 
work adopting a very challenging time line.
    I cannot comment on all of the visa waiver nations, but 
those that I am familiar with have chosen to deliver a new 
passport that works and can be counted on to deliver the 
enhanced level of security demanded by a post-9/11 world. I 
think it's important to share with this Committee that the new 
international standard for biometric passport provides for 
deployment of a series of escalating security measures.
    First, it contributes a preemptive measure in the form of 
new checks that can be implemented by an issuing state to 
prevent persons from securing a passport fraudulently. This is 
a accomplished by using the globally standardized face 
biometric technology to confirm the person renewing the 
passport is the rightful holder of the previous issued passport 
and to carry out lookout and fraud checks on each and every 
passport applicant.
    Second, it provides an immediate detection measure in the 
form of a face-based lookout check that can be implemented by a 
receiving state on all persons seeking entry into the state. 
This new type of lookout check is not dependent on the 
availability of the new biometric passport. It simply requires 
the receiving state to install the face biometric capture 
technology and activate a check for persons deemed to be of 
concern to the state.
    Third, it provides an escalating measure in the form of a 
positive identity confirmation check that can be implemented by 
a receiving state when persons present a new biometric passport 
during border inspection. This measure increases in security 
value as more and more traditional passports are converted to 
the new biometric type.
    Although not part of the biometric program per se, ICAO is 
contributing an important fourth measure: It is working with 
Interpol to create a mechanism whereby receiving states can be 
informed immediately of lost and stolen passport numbers. This 
will ensure that reuse of stolen traditional passports, 
including blank books, can be detected immediately.
    The question this Committee is being asked to consider is 
whether to extend the date of the 26th of October 2005. Based 
on the knowledge of the issues being faced that I'm familiar 
with and the understanding of the significant benefits that 
will be realized both for facilitation and security, I 
encourage the Committee to recommend the following:
    The date of 26 October 2005 remain unchanged, but if 
exceptions are needed they should be made on an individual 
case-by-case basis;
    Visa waiver nations that need more time to introduce their 
biometric passport be required to specify what they still need 
to do to come into compliance and propose a timetable for 
completing those tasks, and that extensions, if necessary, be 
granted on merit;
    The visa waiver privilege be continued while the country 
comes into compliance;
    And a far more prescriptive requirement be applied 
governing immediate sharing of lost and stolen passport 
information using the new computerized system established by 
Interpol.
    I would like to thank you for this opportunity to address 
the Committee, and I'm very pleased to answer any questions you 
might have. Thank you.
    [The prepared statement of Mr. Shaw follows:]
                    Prepared Statement of Joel Shaw
    Good afternoon. My name is Joel Shaw and I am the Chief Executive 
Officer of BioDentity Systems Corporation. I recognize the importance 
of the issue being considered by this Committee and the impact the 
outcome will have, not only for those countries designated as US Visa 
Waiver Program nations, but equally, those countries that are moving to 
strength their own travel document issuance process and border 
controls.
    I can offer this Committee a unique perspective; for in addition to 
being the CEO of BioDentity I am also the Convenor of the Working Group 
set up by the International Standards Organization (ISO) [headquartered 
in Geneva] to work with the UN's International Civil Aviation 
Organization to create international specifications and standards for 
official travel documents such as passports, visas and Official 
Documents of Identity. As Working Group Convenor I am coordinating 
ISO's contributions towards the realization of the new biometric 
passport. I am equally an experienced practitioner, having assisted the 
US Customs Service create and deploy the first passport readers used 
for border inspection, as well as help INS create and deploy their 
first computerized entry inspection system.
    Introducing a new passport, especially one integrating such a 
significant number of new technologies, while conforming to a new 
global standard and guaranteeing successful operation throughout the 
life of the passport is a complex undertaking indeed. The level of 
complexity increases significantly in this case because a computer chip 
is being introduced into a traditional passport book, one that will 
hold biometric details enabling deployment of machine-assisted identity 
confirmation designed to improve facilitation while strengthening 
security for international travel and border clearance.
    Governments involved in introducing the new biometric passport have 
been required to:

        <bullet>  Contribute to the creation of an extensive set of 
        specifications that will ensure that the new passport can be 
        read no matter where it is presented in the world;

        <bullet>  Introduce enabling legislation to support the 
        capture, use, retention and sharing of biometric data on their 
        citizens;

        <bullet>  Become proficient in a range of new technologies, 
        which had been deemed, until this effort began, as completely 
        foreign to passport fabrication;

        <bullet>  Integrate a computer chip into a passport book and 
        introduce new machines supporting assembly, while at the same 
        time ensuring long term durability and of course, successful 
        operation;

        <bullet>  Introduce face biometric capture, create and deploy 
        quality assurance standards and introduce new technology 
        designed to ensure the highest quality biometric sample is 
        recorded in the passport;

        <bullet>  Introduce the necessary processes and tools to 
        address the standardized security schema to protect the data 
        recorded in the computer chip;

        <bullet>  Introduce the necessary processes and technology to 
        establish a new issuance process;

    And for those wishing to inspect persons presenting these new 
passports,

        <bullet>  Introduce the necessary processes and technology to 
        realize a new process of inspection: one offering both improved 
        facilitation and enhanced security.

    Any nation that would undertake such renewal of its passport and 
issuance operation would do so over many years. Visa Waiver Program 
nations have been asked to undertake all of this work adopting a very 
challenging time line!
    I can not comment on all Visa Waiver nations, but those that I am 
familiar with have chosen to deliver a new passport that works and can 
be counted on to deliver the enhanced level of security demanded by a 
post 9/11 world. The new international standard for biometric passports 
provides for deployment of a series of escalating security measures.
    First, it contributes a pre-emptive measure in the form of new 
checks that can implemented by an Issuing State to prevent persons from 
securing a passport, or any form of travel document, fraudulently. This 
is accomplished by using the globally standardized face biometric 
technology to confirm the person renewing a passport as the rightful 
holder of the previously issued passport, and to carry out Lookout and 
Fraud Checks on each passport applicant.
    Second, it provides an immediate detection measure in the form of a 
face based Lookout Check that can be implemented by a Receiving State 
on all persons seeking entry into the State. This new type of Lookout 
Check is not dependent upon the availability of the new biometric 
passport, it simply requires the Receiving State to install the face 
biometric capture technology and activate a check for persons deemed to 
be of concern to the State.
    Third, it provides an escalating measure in the form of a positive 
identity confirmation check that can be implemented by a Receiving 
State when persons present a new biometric passport during border 
inspection. This measure increases in security value as more and more 
traditional passports are converted to the new biometric type.
    Although not part of the biometric program, per se, ICAO has 
contributed an important fourth measure--it is working with INTERPOL to 
create a mechanism whereby Receiving States could be informed 
immediately of lost and stolen passport numbers. This will ensure that 
reuse of stolen traditional passports, including blank books, can be 
immediately detected.
    The question this Committee is being asked to consider is whether 
to extend the date of 26 October 2005, and in so doing grant an 
extension to those Visa Waiver Program nations that are still dealing 
with their deployment challenges.
    Based on an extensive knowledge of the issues being faced and an 
understanding of the significant benefits that will be realized both 
for facilitation and security when this program is successfully 
completed, I encourage the Committee to recommend:

        <bullet>  The date of 26 October 2005 remain unchanged, but if 
        exceptions are needed they should be made on an individual case 
        by case basis;

        <bullet>  Visa Waiver Program nations that need more time to 
        introduce their biometric passport be required to specify what 
        they still need to do to come into compliance and propose a 
        time table for completing those tasks, with extensions to the 
        date being granted based on merit;

        <bullet>  The Visa Waiver privilege be continued while the 
        country with the exception comes into compliance; and

        <bullet>  A more prescriptive requirement be applied governing 
        immediate sharing of lost and stolen passport information using 
        the new computerized system being established by INTERPOL.

    I would like to thank you for the opportunity to address the 
Committee. Mr. Chairman, I would be pleased to answer any questions the 
committee might have.

    Mr. Hostettler. Thank you, Mr. Shaw.
    At this time we will turn to questions from Members of the 
Subcommittee. First of all, Ms. Dezenski, in your oral 
testimony, I believe you stated this, but just to clarify. The 
Department of Homeland Security has incorporated many of, if 
not all, the recommendations of the IG's report. Does one of 
those include a formal process of informing ICE when a 
fraudulent passport has been used at a port of entry but the 
individual has made their way into the country because we did 
not have notification that their passport was lost or stolen 
until after the point?
    Ms. Dezenski. Yes, each of the recommendations that we 
received from the IG have been addressed, including that one, 
so there are formal processes now for those referrals. We've 
strengthened both in terms of what do we do if we get a lookout 
hit and we have to deal with that person at secondary, and what 
do we do if that information on lost and stolen passports comes 
after the fact and we do a check and realize that that document 
may have been used.
    Mr. Hostettler. Do you know how many times you've had to do 
that, how many times you've had to inform ICE of that?
    Ms. Dezenski. That's a great question. I don't have that 
number, but we can follow up and get back to you.
    Mr. Hostettler. If you would please, for the record.
    Mr. Skinner, how many stolen passports have been found in 
the hands of terrorists or potential terrorists trying to enter 
the country? For example, did not three British nationals just 
recently indicted for trying to blow up financial institutions 
in the U.S. enter on the Visa Waiver Program?
    Mr. Skinner. Our work that we have performed, hasn't 
identified that type of information, but, yes, you are correct. 
The three British nationals that were arrested recently did, in 
fact, have passports. But let's keep in mind these were not 
stolen passports. These were legitimate passports. In fact, 
some came through on, I believe, student passports, but we have 
not validated that. But they were, in fact, legitimate 
passports. These were nationals and citizens of the U.K.
    Mr. Hostettler. Okay. Have al Qaeda terrorists anywhere in 
the world been found with stolen passports from visa waiver 
countries?
    Mr. Skinner. Well, to say they're terrorists, I don't want 
to go so far as to say they're terrorists because we don't have 
that type of evidence. But there is--there are coincidences. 
For example, there was the assassination in Afghanistan a 
couple years ago, and those individuals were apprehended. They 
had passports that were stolen from a batch of 46 passports.
    We learned that, from that same batch of 46 passports, 
five--or at least six of those passports were used to attempt 
to enter the United States. Five of them were used 
successfully; one was, in fact, caught. But there are five 
individuals that were able to get through our U.S. ports of 
entry with stolen passports. They came from the same batch that 
was used by al Qaeda or individuals that were associated with 
al Qaeda in the assassination in Afghanistan.
    Mr. Hostettler. Is there any reason to believe that they 
still may be in the country?
    Mr. Skinner. I don't have any--you'll have to ask--I 
believe ICE might be able to give you the status of where those 
individuals are. But at the time of our review, yes, they were 
still in the country, or there's no evidence that they had 
exited the country.
    Mr. Hostettler. Thank you.
    Mr. Veestraeten, when did Belgium--if I could get a 
timeline, when did Belgium begin your program to produce 
tamper-proof passports with biometric identifiers? And how long 
did it take you to put--to roll those first sets of passports 
out?
    Mr. Veestraeten. Mr. Chairman, after the PATRIOT Act was 
adopted in the U.S., we became conscious of the fact that we 
would have to move quickly to tackle this issue. I believe that 
I was here in Washington, D.C., in November 2003 for a first 
round of consultations with the American authorities--State 
Department, DHS--and so I think that we then made this--we 
engaged ourselves to be ready by--in the time frame of 1 year. 
We have aimed for October 26, 2004, which was the original 
deadline in the bill, and I think we were actually ready. We 
delayed a little bit. We started November 15, 2004, with the 
first deployment, and we had the full rollouts January 30. That 
was basically because of internal Belgium reasons. Because we 
still had a stock of non-electronic passports, we wanted to use 
the very last one of those in order not to waste taxpayers' 
money. So we were effectively ready by October 26, 2004, for 
the rollout of these ePassports. It took us about a year, I 
would say.
    Mr. Hostettler. Very good. Thank you very much.
    The Chair now recognizes the Ranking Member from Texas for 
5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I also 
want to acknowledge my colleagues who have joined us, 
Congressman Berman and Congresswoman Waters, who are here part 
of the hearing.
    I'd like to, before I start, Mr. Chairman, ask unanimous 
consent to have submitted into the record the TIA letter, 
Travel Business Roundtable, dated April 21, 2005.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Thank you.
    Ms. Jackson Lee. Mr. Chairman, this is an important 
hearing, and I think we have the opportunity for additional 
hearings. I'd like to ask the Chairman his--or request that we 
have an opportunity to hear from the State Department and ask 
the Chairman whether or not he asked the State Department to 
participate in this hearing, whether or not we'll have a second 
hearing, whether or not the State Department will be present.
    Mr. Hostettler. It's very possible that we could have 
another hearing on this issue. We have a limited number of 
seats, according to Committee rules, and we felt that this was 
an excellent mix. But the State Department would obviously have 
excellent input and insight on this very important issue. It's 
possible that we may have a hearing in the future.
    Ms. Jackson Lee. Mr. Chairman, then let me orally make a 
formal request for the State Department's participation, and I 
will be instructed by your staff how to make that in writing or 
a more formal request. But let me for the record ask that we do 
have an additional hearing that will allow for opportunities 
for possibly other visa waiver representative--meaning 
countries, their representatives be present and/or the State 
Department--not and/or but and the State Department. I think 
that would be a crucial part to part of the work that we're 
trying to do, particularly in asking them direct questions 
about the issue of their protection of stolen passports.
    Mr. Hostettler. We will take that under consultation.
    Ms. Jackson Lee. I thank the Chairman. I hope in the course 
of the dialogue with staff it hasn't gone from consultation to 
a good possibility of a hearing, but I thank you very much and 
I will be engaged with you on that item.
    Let me--Mr. Veestraeten, if I'm getting it almost right, 
welcome. I wanted to just to your point, if you can explain or 
elaborate. You said let's look to inclusiveness and not 
exclusiveness. Why don't you expand on that for me, please?
    Mr. Veestraeten. Well, what I want to say is that we are 
all in the same struggle to bring the technology into the 
passports, that is, the whole of the European Union, not only 
Belgium, that is, including the U.S., Canada, Australia, New 
Zealand. All those countries are working hard on electronic 
passports and on the compatibility with ICAO standards.
    Some countries have had more difficulties than others for 
different reasons. Historic background may be one also. There 
are also different mechanisms in different countries for 
changing the way a passport is produced. Some countries were 
already in a completely centralized system like we were lucky 
to be there. So it was easier for us to implement new 
technology than other countries which do not yet have a 
completely centralized system for passport issuance.
    All these things are important. What I want to say is that 
we all are there together. The Visa Waiver Program is for 
Europe of the utmost importance. It is a reciprocal facility to 
travel for Americans and for the Europeans. I would very much 
regret that while we are all doing our best to get where we 
want altogether to be, that at such a moment the program itself 
might be in danger. That is what I mean with those words.
    Ms. Jackson Lee. You want us to be able to find as 
reasonable a solution as possible, keeping in mind the needs of 
security. And I might add for the record that both Spain and 
Italy, which were also allies in the Iraq war, are included in 
the possible denial of the extension.
    Let me ask Ms. Dezenski about the issue dealing with your--
the lookout system and if Mr. Skinner would comment after you 
comment. You believe you've made some progress, and let me 
applaud you. I believe there have been some steps. But there 
are criticisms. How committed are you or how convinced is DHS 
that they are working through the problems of the lookout 
system and they've really met the standards, the test that the 
IG has offered in his report?
    Ms. Dezenski. We do think that there has been marked 
improvement in terms of the type of information that we're 
getting, particularly through the Interpol process, and then 
being able to implement that into our systems and get that out 
to our border inspectors in a quicker fashion, and it's more 
comprehensive information. So I think we feel cautiously 
optimistic that this is moving in the right direction.
    Now, we will be monitoring this very closely. We've stood 
up a new organization within DHS called the Office of 
International Enforcement, and their primary goal is to monitor 
the VWP program and ensure that the criteria are being met. 
And, in fact, I mentioned in my oral statement that we're just 
completing our review of the countries, and that happens on a 
2-year basis. So once we complete this, we'll be just about 
ready to start the next review.
    So it's an iterative process of ensuring that these foreign 
partners are living up to the standards, and with specific 
respect to the lookout system, we think that the types of 
information we're getting are better and we're making progress.
    Ms. Jackson Lee. Mr. Skinner?
    Mr. Skinner. Yes, I must agree. The Department is, in fact, 
making progress and it is getting better on a monthly basis. It 
does take time, but other elements within the Government are 
now contributing more. We're getting more concise data. The 
issue with the Interpol is probably one of the things that 
we're most pleased about, to get those countries participating.
    I would like to point out, however, it's not necessarily 
always the lookout system that's at fault here, because they 
are getting information and they are developing a huge 
inventory.
    One of the underlying problems here is the two numbers that 
we use on our passports and that this country as well as other 
countries use. And this is particularly important when you're 
dealing with stolen blank passports, because what is reported 
is the blank--or is the passport inventory control number, not 
necessarily the passport number. So once that document is 
forged and used to come into this country, our capability to 
identify or to match the passport number with the inventory 
control number currently doesn't exist. And therein lies the 
problem, and until we start using one number on our passports 
for the inventory control number as well as the passport 
number, we're going to continue to have problems and people are 
going to still continue to get these passports or use these 
passports to get into this country illegally.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from California, Mr. 
Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
appreciate this, and I appreciate the fact that you have set up 
this meeting. This is an extremely important issue.
    Mr. Shaw, you indicated in your written testimony and in 
your oral testimony that this is a complicated process, that 
is, what we are asking to be done with respect to these 
enhanced passports. I understand that. I also remember the 
Manhattan Project may not have taken as long as many of the 
things we're asking us to do in these days.
    I came back here because of 9/11. I came back after being 
gone 16 years because it seems to me the world had changed and 
we needed to act as if the world has changed. And one of the 
big disappointments I have is not everybody seems to act that 
way.
    How long is reasonable? I mean, in your written testimony 
you said the date of 26 October 2005 should remain unchanged, 
but exceptions, if needed, should be made on an individual 
case-by-case basis. So, it sounds like you expect that there 
are exceptions, there should be exceptions. How long should we 
expect to wait? And is it because in your estimation, not the 
complexity because you say keep the date there, but the lack of 
political will or practical will? Or what is it we're facing 
here?
    Mr. Shaw. Well, I cannot speak on the political will for 
the various countries, but I can speak on the technical 
complications.
    I would say, first of all, that within a year after that 
date you should expect all of these countries to be in complete 
compliance. No longer than that.
    Mr. Lungren. So that the outside date would be 26 October 
2006, as far as you're concerned, for any and all----
    Mr. Shaw. Of the countries, absolutely. I think the issue 
is that each one is facing a different situation, and what 
we're really asking the various countries to do is to get in 
lockstep. This data that is being put on the passports, which 
is the biometric data, has to be able to be used and 
interpreted all over the world. And I think this is where the 
complexity lies because the books are all different. There's an 
individual way that these countries make passports. You're 
trying to integrate the chip into the book and at the same time 
to introduce biometric capture and have a mass public 
participation and a machine-assisted confirmation scheme and 
have no mistakes in it. When they arrive in this country, 
they're to work.
    Mr. Lungren. I appreciate that, and I understand the 
complexity and the difficulties of all sorts of countries 
marching in lockstep. General Eisenhower had to confront that 
on D-Day. Thank God he didn't have extension--in fact, he 
didn't extend the time beyond one day, as I recall.
    If I could ask the representative from Belgium, the 
Director General from Belgium, you folks seem to have been able 
to complete this mission. Can you tell me from the standpoint 
of your government, what were the most difficult challenges? 
Were there legal challenges, practical challenges, or political 
challenges in making sure that you were able to accomplish this 
task?
    Mr. Veestraeten. I think for us it was practical. Most 
difficult was the practical challenge. Political challenge, we 
knew we were--the government was very much convinced of the 
fact that we needed to be in compliance. I think the problem 
was mostly practical.
    I just wanted to point out for your information two 
elements. First is that indeed we do have only one passport 
number. I didn't know the countries had two different passport 
numbers in their passports. This seems to be indeed the reason 
for confusion. So since a long time, we only have one single.
    The second thing is that there is a deadline, not a U.S. 
but the European deadline, for passports with a computer chip, 
and that deadline has been set by the European Commission and 
the member states. It is August 28, 2006. So by the end of 
August 2006, there is an internal European regulation which 
puts a final deadline for all member states, all 25, not only 
the Visa Waiver Programs, to include a computer chip in all 
individual passports issued after that date.
    Mr. Lungren. Thank you very much.
    Ms. Dezenski, if, in fact, we get everybody to cooperate, 
at whatever date we do, is the Department of Homeland Security 
prepared to actually utilize this? That is, do we have the 
equipment purchased? Do we have the efforts in place so that we 
can actually read these things and make sure that they are 
functioning so that we don't on our end have a delay?
    Ms. Dezenski. One of the most challenging pieces of this 
has been the reader technology and ensuring that we procure the 
right readers to read the right types of identifiers. We have a 
pretty robust process over the next 3 months to continue 
testing in live operational environments several different 
types of reader technologies so we can make a procurement 
decision that reflects some data, that will give us a better 
sense for what will survive in a very busy environment. So we 
are moving forward with that and certainly are committed to 
getting those readers out----
    Mr. Lungren. What is the date certain?
    Ms. Dezenski. --as soon as we can. I can't give you a date 
certain.
    Mr. Lungren. I know. You told me the process is robust. You 
told me as soon as possible. You told me you're doing all those 
things--I love all that. But if I were in a courtroom, and I 
asked you that question under oath, the judge would probably 
tell you these were insufficient answers.
    Ms. Dezenski. I can tell you that we will not have all 
readers deployed by October 26, 2005.
    Mr. Lungren. Will not.
    Ms. Dezenski. We will not make that deadline.
    Mr. Hostettler. I thank the gentleman.
    The Chair recognizes the gentleman from California for 5 
minutes, Mr. Berman.
    Mr. Berman. Well, thank you very much, Mr. Chairman, and I 
congratulate you on having this hearing. My colleague from 
California, Mr. Lungren, made reference to General Eisenhower 
in meeting a deadline. Of course, U.S. troops were part of 
group that had to meet that deadline. He wasn't just telling 
the allies to meet that deadline. So my question is: Does the 
State Department now issue passports that meet the standards we 
are requiring as of next October, that is, a digital photo for 
facial recognition, plus optional biometrics of fingers and/or 
eyes which are stored on contactless integrated circuit chips? 
Do we now issue those passports to our citizens?
    Ms. Dezenski. Obviously, the Department of State is not 
here to answer that for themselves----
    Mr. Berman. But I'll bet you know.
    Ms. Dezenski. I do know and, sir, no, they do not yet issue 
those.
    Mr. Berman. Okay, so----
    Ms. Dezenski. They are in the process of deploying a new 
passport which will go out for the first test phase, if you 
will, this summer. It will only be issued to Government 
employees. And then depending on how that process goes, they'll 
continue with deploying the new document to the broader public 
after that initial phase.
    Mr. Berman. So if the Europeans imposed the standard on us 
and the other visa waiver countries imposed the standard that 
we're imposing on them, the U.S. would not be in compliance. 
American citizens would have to obtain visas at European 
consulates around this country in order to go to those 
countries.
    Ms. Dezenski. We would not meet a requirement that would 
include a biometric chip within the passport document.
    Mr. Berman. But that is our requirement for them, isn't it?
    Ms. Dezenski. Correct.
    Mr. Berman. Okay. Assuming the deadline passes, I mean, 
from what you've said, Belgium is ahead of the United States on 
this issue. Am I right?
    Ms. Dezenski. I think the comments from the gentleman to my 
right would indicate that Belgium is leading the pack amongst 
VWP countries in terms of those biometric requirements, yes.
    Mr. Berman. But for the countries that don't meet it, what 
will the State Department be faced with following the October 
deadline in terms of applications, manpower needs, things like 
this?
    Ms. Dezenski. Sure, I think there's probably a couple of 
things to consider, and the first would be if the deadline 
continues as is, it would require a significant number of 
people to obtain visas before they come into the country. Right 
now we have about 40,000 people who come into the U.S. every 
day under the VWP program. So for those who are not in 
compliance with the requirement, they would be needing to go to 
the consular offices and obtain that visa to enter the country. 
So there's that issue.
    There also issues in terms of workload associated with that 
that the Department of State would probably be better suited to 
answer and I know they've thought about some of those 
implications. But obviously there's a lot of back-end work to 
be able to accommodate that additional group of people.
    And the other thing to consider from a travel and from a 
tourism perspective, the more layers that we have from a 
security perspective, we have to be even more cognizant of 
whether people will simply talk with their feet and decide not 
to travel to Disney World, not to travel to locations, because 
there are now one or two extra steps to go through to get the 
family here.
    So those are the types of implications that we would need 
to keep in mind.
    Mr. Berman. The Japanese Embassy has said that 
approximately 670,000 Japanese citizens will have to apply for 
visas based on current travel, 670,000 between October 26 of 
2005 and March 2006. That will be, that particular country, 
quite a workload on our embassy and consulates there.
    My final question then is: You're here on behalf of the 
Administration. Has the Administration--you've indicated the 
U.S. won't have such a passport ready by October 26. It's clear 
a number of other visa waiver countries won't. Has the 
Administration taken a position on the October 26 deadline?
    Ms. Dezenski. Well, I don't have a mandate today to tell 
you about any shift in policy from what we've been pursuing 
thus far. Secretary Chertoff intends to be up here in early May 
to speak with Chairman Sensenbrenner about some additional----
    Mr. Berman. About why he needs an extension.
    Ms. Dezenski. About some additional details on what we 
think the recommended path forward might be.
    Mr. Berman. Thank you.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentleman from Arizona for 5 
minutes.
    Mr. Flake. I thank the Chairman for calling this very 
important hearing. When we extended for a year last time, I 
stated at the time that it ought to be 2 years which the 
Administration asked for. Now we're seeing why that needed to 
be the case. And if nobody else is prepared to, I'm prepared to 
introduce legislation to go for another year, or two if we need 
to.
    I met with the travel industry yesterday, and our economy 
is really taking it here because of this and many other things. 
It's the certainty going ahead. Our friends from Europe and 
other visa waiver countries simply don't have certainty going 
forward, so they don't plan convention visits or anything else. 
And it has to do with procurement of U.S. goods and everything 
else because they can't travel here or feel they may not be 
able to. And it's really hurting us, and I don't know what 
we're gaining by not extending it again or indicating that we 
are. So I hope that we move quickly to give countries more 
certainty, and I applaud the Belgians for moving ahead more 
quickly than anybody else. But when they're ahead of us, I 
can't imagine that we could expect the others to move any 
faster than that.
    So, anyway, I just want to indicate my willingness to push 
ahead with another extension. I think that is what needs to be 
on the table, and then let's decide how long that extension 
needs to be. But we can't expect others to do what we're 
unprepared to do ourselves, and that's the bottom line.
    I thank the Chairman.
    Mr. Hostettler. The Chair now recognizes the gentlelady 
from California, Ms. Waters, for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman and Members. 
I'm just really remembering the last hearing that we had on 
this issue and some of the concerns that I had at that time.
    First, let me just say that I understand that the 
technology for the development of the biometrics that's needed 
is not really complete, it's not reliable at this time. Is that 
correct?
    Mr. Hostettler. If the gentlelady will yield, this is an 
excellent----
    Mr. Shaw. I yield to the----
    Mr. Hostettler. --opportunity to clarify that the standard 
that is being required by October 26 of this year is the 
standard, once again, that was in place in 2002, which was the 
biometric facial standard. This technology is in place. It's 
capable. The technology that you might be considering is the 
chip technology that is still----
    Ms. Waters. Yes, I'm talking about the chip.
    Mr. Hostettler. Right, but it is not required in current 
law. The country of Belgium spent about a year and was able to 
meet the requirements under law, the previous requirements 
under law. And so the technology that is required by law for 
the deadline is in place and can be used. So there's not a 
question of technology--and let's clarify that. There's not a 
question about technology or the standards that are required to 
meet the October 26, 2005, deadline. And I yield back.
    Ms. Waters. All right. Well, I mean, I think this hearing 
is very important, but I suspect that we are not prepared to 
disrupt the tourism and the trade and everything else that goes 
along with, you know, people being able to come to this 
country. So I'm not really focused on that so much. I'm glad 
that we're talking about it. I think that probably the 
extension is going to happen. I don't see any signs that 
anybody's willing to hold that up.
    What I asked before is about the countries that participate 
in the Visa Waiver Program. Where is Andorra? What is it? Where 
is it? Anybody know? I know about these little places like 
Monaco and Brunei. But I see a number of countries on here that 
I don't know very much about.
    I'm concerned about countries like South Africa. We have a 
major trade agreement, the African Growth and Opportunity Act, 
with South Africa. And, of course, there are no countries of 
color much in this list, but I'm concerned about what we can do 
to open up opportunities with the expansion, with the extension 
that we're going to give. I'm concerned about opening up 
opportunities to countries that are not listed. I know Andorra 
and Monaco may be very, very important, but places like South 
Africa I think are very important, too.
    What can we do as we give the extension, what can do to 
open this up?
    Ms. Jackson Lee. Would the gentlelady just yield for a 
moment?
    Ms. Waters. Sure. I yield to the gentlelady from Texas.
    Ms. Jackson Lee. We have--I think what you have just opened 
up is the question of an overall review. Through the years of 
my service on this Committee, I've raised that very question on 
South Africa and a number of other countries that are again 
being our trade partners but also our allies in war and peace. 
So I yield back to you by saying that this is why I believe 
this is an important hearing, but I think also we will need to 
assess what we're doing here today because we're either going 
to break the system by burdening offices around the world who 
cannot face the large numbers of visa requests, and then, of 
course, we've never addressed the question of whether or not 
that list can be expanded or diversified. You raise a very good 
question. I think we need ongoing hearings on this subject.
    I yield back.
    Ms. Waters. Thank you very much. I appreciate that. And, of 
course, I would be willing to join with my colleagues for an 
extension, as the President of the United States and everybody 
else is going to do, but I would not be willing to do it 
without taking a look at how we expand this list, particularly 
to countries that we have trade agreements with, such as South 
Africa, where it's important for them to have this opportunity 
also.
    So I yield back the balance of my time.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Texas, Mr. 
Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you, Chairman. I appreciate this 
opportunity. I appreciate you all coming forward to testify. 
Having been a judge for so many years, I'm familiar with what 
it takes to come forward and testify. I've done it myself.
    But, Ms. Dezenski, Mr. Skinner, did you all ever see the 
original ``Jaws'' movie? You know what I'm talking about?
    Mr. Skinner. Yes, I do.
    Ms. Dezenski. I've seen it.
    Mr. Skinner. I did.
    Mr. Gohmert. And do you remember how the police chief was 
really concerned about the public safety and that they had a 
real menace out there waiting to kill people, and the city 
council and the mayor, they just wanted to protect the tourism. 
And they got so concerned about the tourism that they quit 
worrying about public safety, and as a result, people got 
killed.
    Now, it's my belief and my feeling from people in the 
district in Texas--and we have a huge number of folks, though 
I'm a Republican, that often vote Democrat for other 
positions--but I feel a huge sense of concern about this 
Government doing one of its principal functions, and that is, 
providing for the common defense.
    If there is another attack and it turns out that once again 
we have been derelict in who had visas, who wasn't collected 
and gotten rid of, gotten out of the country, then I think 
there will be a wholesale change in Congress. If I am allowed 
to come back if that were to happen, I'm going to be looking to 
help there be a wholesale change in those that did not have a 
sense of urgency about the safety of this country. That 
includes with contractors, that includes with people within the 
Government, because I think we should have a sense of urgency. 
And that's where I'm coming from.
    So with that understanding, I'm curious, and you may have 
answered and I haven't heard. I came late from the floor. But 
how many VWP countries do you think will be able to meet the 
October 2005 deadline?
    Ms. Dezenski. I'm consulting my cheat sheet here. We think 
that there are about 14 countries who are on track to be close 
to the deadline. One thing to keep in mind--this was touched on 
a little bit earlier. Based on that list of those countries, 
that's about 21 percent of the folks coming in under the VWP 
program. So the biggies, if you will--France, the U.K., et 
cetera--are further down in the list. So about 80 percent of 
the volume coming in under the VWP program would not be in 
compliance by that date.
    Mr. Gohmert. Okay. What's your assessment of how diligent 
those who will be in non-compliance have been?
    Ms. Dezenski. I think there's been a tremendous good-faith 
effort. We've been working closely with these countries over 
the last--specifically over the last 2\1/2\ years on some of 
the things we're talking about today but more broadly over 6 
years on improving the security of passport documentation. And 
I don't think that there's any lack of good faith, as I said, 
to meet these requirements. I think that it's technical and 
operational in nature, and we need to make sure that as we move 
forward we're deploying the right type of technology. We do not 
want to be in a position to procure readers, for example, that 
don't get us to the system that we need, both to facilitate 
people moving through the border inspection process and to 
ensure that, you know, we're able to read the documentation 
that we're now requiring.
    So these are tough issues, and I don't think anybody wants 
to be in the position of not meeting a deadline, including our 
foreign partners. So I think there has, again, been a very 
concerted effort to move forward as quickly as we can.
    Mr. Gohmert. Let me ask Mr. Veestraeten, what kinds of 
problems have you had, if any, with your readers? Since you are 
out front, usually that's where problems make themselves known.
    Mr. Veestraeten. I don't think that we have had problems 
with the readers at the moment. They seem to work fine. We have 
deployed the readers at the national airports, and we have 
asked the police, the Belgian Federal police, to give us weekly 
reports on the results of those readings of chips. We're 
starting to get the first reports now, I think two, three weeks 
ago, and so far the passports which have been checked were 
fine.
    Mr. Gohmert. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentleman from Iowa for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman, and I want to thank the 
panelists as well. I came in here at the tail end of this 
testimony, and so I'm kind of picking this up on the run. And I 
want to also reiterate the metaphor that Mr. Gohmert used. I'm 
sitting here trying to think of one, and he brought one up. But 
it does occur to me that there's a reason why we are doing 
this, and we had lost track in this discussion as to why we 
have established the Visa Waiver Program and set up this 
structure.
    As I sit here and listen to the answers to the questions 
and what little I know about this history of this event--and 
it's probably not all that minor--I have to ask myself this 
question. There's an advocacy here for an extension for the 
sake of the tourism industry, and particularly 670,000 
Japanese. That's a pretty significant number and reason to 
consider this, and I've heard that issue come up several times. 
We recognize that in the European Union there will be a number 
of countries that won't be able to comply.
    I see this date of August 28, 2006, where it looks like all 
the EU will be in compliance. So I also want to ask my first 
question to Mr. Veestraeten in case he may know that, or 
whoever else on the panel. Is that a date that will be met, do 
you believe, by all 25 members of the EU?
    Mr. Veestraeten. Well, to be honest, I'm not sure. I cannot 
talk for each of the individual countries. What I can point 
out, if you'll allow me for these deadlines, that the U.S. 
deadline is a deadline of another nature than, for instance, 
the previous one on the machine-readable zone. The machine-
readable zone deadline in the U.S. legislation was one which 
brought an obligation both to foreign countries and to the U.S. 
Government to have this--obligation to have this technique 
incorporated in the passports. This is not the case for the 
chip, as you very well know.
    There is, of course--and I don't want to qualify--to make a 
difference of which is the better way to go. There's another 
way to go which we have now adopted in Europe, which is to set 
a deadline for ourselves, but we have not yet developed any 
deadline for third countries at this point.
    So I think that the fact that this is an internal deadline, 
it is, first of all, also a way to go. I did want to point it 
out. But it's also, I think, another nature of obligation 
because I think that countries will be--will feel compelled to 
also respect this deadline. I think there is an extra 
motivational element there. So I think that, yes, first of all, 
the date is a bit farther away, so it gives a little more room, 
about 10 months. But, secondly, I think that the motivation is 
there also for the whole of Europe to really be there by that 
time.
    Mr. King. I thank you. And, Ms. Dezenski, then to complete 
this circle of questions in a way, and that is, are we looking 
for an extension for the countries that aren't going to be able 
to comply for the tourism industry in the United States or for 
the Department of Homeland Security?
    Ms. Dezenski. As I stated earlier, my goal today is not to 
broach that subject. The Secretary is planning to meet with 
Chairman Sensenbrenner in the beginning of May to chart out a 
more detailed path.
    Mr. King. Then I would state to the panel that it appears 
to me that our sense of urgency has dissipated over the last 3 
years, 3\1/2\ years, and again reiterate Mr. Gohmert's remarks 
with the necessity for this, the reason that we are--we have 
moved forward on this. And if we can move forward at a pace 
that's comfortable to all of us, that wouldn't be a pace that I 
would be comfortable with if that means that the security of 
this nation is put at risk.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hostettler. I thank the gentleman.
    Because of some desire from some Members of the 
Subcommittee, we're going to go for a second round of 
questions. I don't know how many we'll have. I will give myself 
5 minutes to begin that, and I would like to for the record 
clarify that every individual in a Visa Waiver Program country 
that has a valid visa today, if their visa does not come out of 
deadline by October--if it does not expire by October 26, 2005, 
will be able to use that passport subsequent to October 26, 
2005. The deadline is for new issuance of visas. So of the 
700,000 or so Japanese, of which we have a tremendous concern 
today that have a passport today, their passports are going to 
be able to be used after October 26, once again, until such 
time as they expire after that time.
    Mr. Skinner, I'd like to ask you questions as well with 
regard to the lost and stolen passport database. Except for 
times when countries report that there have been a significant 
number of passports stolen from Government agencies, Government 
facilities, we, in fact, depend on individuals in Visa Waiver 
Program countries to report their passports as being lost of 
stolen. Is that not correct?
    Mr. Skinner. Yes, that's true.
    Mr. Hostettler. So they could be lost or stolen for a long 
period of time before the individual would report it to their 
government and then their government could virtually 
immediately report it to us. But there could be a significant 
amount of time theoretically that would----
    Mr. Skinner. Yes.
    Mr. Hostettler. --transpire between that time.
    Mr. Skinner. Yes, that's true, if they report it at all. 
They may not even report it.
    Mr. Hostettler. Exactly. And do we also not know that from 
time to time there are instances of individuals selling their 
passport and they would not have a desire to report that.
    Mr. Skinner. That's possible, yes.
    Mr. Hostettler. If they sold their passport.
    Mr. Skinner. Sure, that would be possible. That's not 
something that we investigated or that we included in our 
assessment. But, sure, that's possible.
    Mr. Hostettler. So there is this universe of possibilities, 
of potential situations that are out there that your 
recommendations and DHS' subsequent implementation, there is a 
universe that will not be covered, potentially not be covered 
by these suggestions.
    Mr. Skinner. Yes, that's true. But we should point out that 
when you're dealing with a passport that has been issued, they 
are very, very difficult then to alter. And if they are altered 
to enter the United States, then I think our inspectors are 
very well trained to identify them. So they're a lot harder to 
use, unlike the blank passport, wherein those can be more 
easily altered. But when you're dealing with someone's picture 
that has to be altered, a lot of these passports that are used 
today are digital photos, that's almost virtually impossible 
to--without destroying the passport itself--to alter.
    Mr. Hostettler. Thank you.
    Mr. Skinner. So it makes it very difficult.
    Mr. Hostettler. Thank you.
    Mr. Veestraeten, how does Belgium deal with the illegal 
sale of passports? Do you have a statute, do you have a law in 
place that deals with that?
    Mr. Veestraeten. Yes, of course, Mr. Chairman, we have laws 
against fraudulent documents, people who make them and so on. 
We prosecute people who we find trafficking documents or 
altering documents.
    Mr. Hostettler. Very good. Thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you. We've heard a wide range of 
testimony today, and we've even had one of our artistic giants 
in the movie industry being utilized to explain the need for 
homeland security. I am trying to think of one equally popular 
and comes to mind ``Beauty and the Beast,'' which was a popular 
movie as well. And I think when we talk about making choices, 
it should be a practical discussion. And, frankly, the Visa 
Waiver Program was a practical program that dealt with the 
comings and goings of countries that had longstanding 
relationships.
    At the same time let me be very pointed. Democrats have 
been very strong on homeland security and remain so, and I 
think it is important to note--Mr. Skinner, you were in another 
hearing that I managed to come in because I was in Judiciary, 
but we spoke about the management issues. And I believe I 
raised--though you did not have an opportunity to speak to my 
question--the challenge of integrating 180,000 persons in the 
Department of Homeland Security. And so I understand Ms. 
Dezenski's step-by-step effort to respond to your concerns out 
of the IG, but we must be practical and realistic.
    I guess let me just ask this one question to you. Does the 
Visa Waiver Program equate to you to equal terrorism?
    Mr. Skinner. No. I would not go so far as to say that. 
There are risks out there with the Visa Waiver Program. As I 
said earlier, the mere fact that you don't have to go through 
the rigors of a visa review process coupled with the laws of 
our partners in other countries, to be able to be naturalized, 
that presents a problem for people such as Reid who tried to 
bomb a plane with a shoe bomb. He was a naturalized citizen. 
The three individuals who were apprehended in England who had 
visited this country on multiple occasions, who had been 
associated with al Qaeda, I think two of those three were 
naturalized citizens. And I think those issues----
    Ms. Jackson Lee. Those are problems that we have.
    Mr. Skinner. Yes. These people, and those issues are the 
types of things that we need to be concerned about, and there's 
where we get into our intelligence operations. We have to have 
a very robust intelligence program to be able to be prepared to 
address those type of issues.
    Ms. Jackson Lee. I appreciate that distinction, that the 
program itself is not the problem. It is obviously a program we 
have to give great oversight, but we need other integrated 
functions, such as intelligence, to discern the difference 
between individuals coming for good and individuals coming to 
do harm.
    Mr. Shaw, you gave solutions, and I thank you for being a 
witness today. Would you re-emphasize those solutions? In fact, 
I think the interest is--one main question that I have, if I 
can just share it with you, and if you can answer the question. 
What can go wrong if visa waiver countries are rushed to meet 
the deadline? You offer some technological solutions, and if 
you can include that in your answer.
    Mr. Shaw. Well, I think the biggest problem will be they'll 
all show up with a passport that won't work because, 
irrespective of what is happening, the new biometric passport 
has one incremental, additional component. It's allowing 
machine-assisted identity confirmation. You'll have chaos at 
Homeland Security because they'll show up, and it says I can't 
read the data from the chip, I can't identify the person, then 
immediately the person is suspect. Is it because they've done 
something to the chip, or what is it? And I think that this is 
what I'm seeing now in the work that I'm doing across the 
world, that countries are vigorously trying to make sure that 
that identity detail that goes onto that document works when 
they arrive in the United States.
    Ms. Jackson Lee. So what you're seeing across the world is 
that the countries in particular dealing with the visa waiver 
are making efforts, are working through the technology, are 
trying to get a refined process. Is that my understanding?
    Mr. Shaw. Absolutely, and are vigorously testing and 
experimenting. One of the countries that's been mentioned--I 
won't be specific--that is going to be delayed actually has 
conducted a major test of not only facial but fingerprint 
technology recently. And so they're going to through an 
extensive array of testing to make sure that that one thing 
that is supposed to happen when they arrive in this country 
works and that is that they can confirm identity.
    Ms. Jackson Lee. And I guess the idea is that if we don't 
focus on allowing that technology to be improved, we may create 
a greater nightmare than what we would have.
    Mr. Shaw. I would say so, yes.
    Ms. Jackson Lee. And that speaks to your suggestion that 
let them be in an ongoing process of compliance by making an 
ongoing assessment of their work toward being in compliance.
    Mr. Shaw. Absolutely.
    Ms. Jackson Lee. And not shut the door completely on that.
    If I can make this final point, Mr. Chairman, I was 
speaking with some individuals earlier today about some 
technology that might be used inside the United States, because 
people do come in and then travel around. The potential of 
being able to discover very quickly whether or not a Sheila 
Jackson Lee boarded a plane in Chicago and then all of a sudden 
showed up at the L.A. airport in not sufficient time to have 
gotten in both places, technology would immediately hold one of 
us. I think the key is you'd want the technology to work so 
that it's either holding the right person or there was not a 
confusion in the name. That's only a simple explanation of what 
I think I hear you saying and what these international entities 
are trying to do and that we do need to pay attention to what 
would happen stateside if they came with the wrong technology 
or the inappropriate document.
    Mr. Shaw. Absolutely. I heard an official at one point in 
the international meetings we were in say that if the biometric 
doesn't work, we're going to send them to secondary. And the 
response was you're going to have a crowded secondary, because 
the technology is an empowerment tool for the border inspector. 
They can look at the image that's on that screen and confirm 
that the person standing before them is exactly who they say 
they are. That's why face was chosen, because it's a redundant 
capability. You've got to have this capability if the equipment 
fails, and that's what this is all about. So you want to make 
sure it does work.
    Ms. Jackson Lee. I thank the Chairman.
    Mr. Hostettler. Thank you.
    The Chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Gohmert. I'm going to yield back the time to the 
Chairman.
    Mr. Hostettler. I thank the gentleman.
    Mr. Shaw, if I can ask you one question, with regard to the 
use of technology for screening devices that will accept--
essentially readers that will accept the passports, the 
presence of a chip will not preclude a level of technology or a 
generation of reader that simply recognizes facial biometrics. 
The presence of a chip, regardless of its status, whether it's 
maturer technology or not, will not preclude the use of a 
facial biometric identifier and reader to operate properly. Is 
that correct?
    Mr. Shaw. No, it will not.
    Mr. Hostettler. Okay. So even for countries that--I said I 
was going to ask you one. Here's two. Even for countries that 
are looking for advanced technology such as the chip, if they 
simply meet the requirement of the facial biometric and the 
other requirements according to the 2002 act, those passports 
will still be usable in the United States given that we have 
the technology to read those passports, correct? Regardless of 
the presence of a chip or what type of chip or the maturity of 
the technology or anything like that.
    Mr. Shaw. If I understand you correctly, the chip was 
chosen because we had to have the capacity, a large block of 
memory, to put data on in a way that was globally 
interoperable. There are many, many facial recognition 
algorithms, and if we put down the mathematical representation, 
let's call it, the template, then you'd have to buy proprietary 
technology and have a row of different reading devices to 
analyze that data.
    So what happened was that we went to a globally 
interoperable representation, which is the facial image, and 
that increased the capacity. There was also the potential of 
incorporating fingerprint, potentially iris data, increase the 
size of the tank even more.
    So one of the reasons a chip was chosen, because it's 
forward-looking, is it allows the capacity to be expanded, and 
allows someone to put on all three biometrics if they want, or 
just one. And that was one of the reasons why we went to the 
chip and it has been a cornerstone of the ICAO decision. And 
it's been done for one reason: global interoperability.
    If the gentleman will continue to yield for just one more 
question. But the chip is not required for the fundamental 
reading of the facial biometric.
    Mr. Shaw. If the data is put on the chip--or onto the 
passport, recorded on the passport, yes, the chip is required, 
because that's where the encoded data is, is in the chip.
    Mr. Hostettler. But it's--all right. I'll have questions 
I'll submit.
    Mr. Gohmert. No, go ahead.
    Mr. Hostettler. Well, but we do not require the chip by 
law. The chip is additional to the law and can be used for 
supplemental information and later generational technology 
information. But to actually read the facial biometric for a 
reader you don't need the chip to talk to the reader. You 
simply need the facial photograph, correct?
    Mr. Shaw. The original convention had three basic potential 
ways of dealing with this.
    First of all, you could take and scan the photograph that's 
in the data page of the passport. That requires a special 
reader. The chip is used to encode it in a way that gets around 
some of the problems of scanning through laminate and security 
features and things like that.
    Mr. Hostettler. Right.
    Mr. Shaw. But the other aspect of it is that if you're not 
going to do a positive identification--in other words, 
identifying you as who you say you are, then the facial 
recognition technology can run a lookout check. In other words, 
they wouldn't be looking for you. They'd be looking for the bad 
guy and identify that. So that is there.
    But if you're going to do a positive identification check, 
you either have to scan the photograph on the data page, or you 
have to read it from the chip.
    Mr. Hostettler. Thank you. I thank the gentleman.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Hostettler. Excuse me. The gentleman from Texas has the 
time.
    Mr. Gohmert. I'd yield to the gentlelady from Texas.
    Ms. Jackson Lee. I thank the distinguished--my new 
colleague, the distinguished gentleman.
    Mr. Shaw, then, but the intent of getting a program 
biometric is, in fact--or part of the intent is to get that 
pure identification.
    Mr. Shaw. That's correct.
    Ms. Jackson Lee. Is it not?
    Mr. Shaw. That's correct.
    Ms. Jackson Lee. And I think that is important.
    Mr. Shaw. Yes.
    Ms. Jackson Lee. Thank you.
    Thank you, I yield.
    Mr. Hostettler. I thank the gentleman.
    The Chair recognizes the gentlelady from California, Ms. 
Waters, for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman. I think it's 
important for me to say that every Member of Congress is 
equally concerned about homeland security. We all are very 
hopeful and work toward--bring everything that we can to secure 
the homeland. So when we talk realistically about problems such 
as this one, and if we may not agree on whether or not there 
should be an extension of these countries, it's not because we 
are less concerned. It is because we are just realistic about 
what could and could not happen.
    I'm looking at a Los Angeles Times article that says this--
the last paragraph of the article says, ``Meanwhile''--as it 
discusses changes in passports here and abroad. ``Meanwhile, 
the European Union hinted it might require visas of U.S. 
citizens if Congress refuses to extend an October deadline 
requiring machine-readable biometric passports for citizens of 
27 visa waiver nations, mostly in Europe. It said many of its 
nations would not be ready with the passports by then.''
    This would be worse than a trade war if, in fact, the 
European Union decided that it would require of us what we're 
requiring of them. I think Mr. Berman pointed out that we could 
not meet that requirement should it be placed on us. So I think 
it's always very necessary, no matter how concerned we are 
about homeland security, that we recognize that there are some 
things that are just going to take time and work and effort. It 
seems to me there are a number of questions here--technology, 
retaliation, other kinds of issues.
    So when I said earlier that based on my evaluation of this 
problem that I'm convinced that we will have to extend the 
deadline, it's because based on how things work and how this 
Congress works and how we work out problems is just not a 
question in my mind.
    So I thought it would be important for me to just, number 
one, reiterate the fact that we're all concerned about homeland 
security, but I'm sure many of these other countries are 
concerned about their homeland security also. And I suspect 
everybody's working very hard to meet the deadline, but 
probably it will be missed. And it is at that point--at some 
point that we're going to have to come to grips with reality 
and simply extend the deadline in the interest of our 
relationships with the world and with the European Union in 
particular.
    Having said that, I'm wondering from Mr. Veestraeten 
whether or not other countries have sought your country's help 
and assistance in developing their technology and if its 
technology that is offered can be accessed by other countries.
    Mr. Veestraeten. Yes, indeed, I've been contacted recently 
by Portugal, by Ireland, and by some other member states to see 
where we can better work together.
    This being said, we all have our established relationships 
with national printing offices, national banks, with companies, 
so there is a different tradition at each different country for 
production of passports. Don't forget that the passport 
essentially remains a paper document. There is a chip in it 
now, but it essentially remains a very specific paper document 
with a lot of security features in the printing and in the 
paper. So that remains. It doesn't change. The way we all work, 
all governments work with those who produce the passports is 
different as a historic background. But I was indeed asked to 
see how we can better cooperate by the countries I mentioned.
    Ms. Waters. Thank you. And of the panel, have you found 
that most countries are working very hard to try and meet the 
deadline? Are they really attempting to do it? Is that true?
    Ms. Dezenski. We would agree with that. We've been very 
active in the ICAO process, working closely with folks. And as 
I said earlier, I think there's been very much a good-faith 
effort to reach these deadlines and to do it as quickly as 
possible. And there's most definitely a sense of urgency in 
that process as well.
    Ms. Waters. Anybody else?
    Mr. Skinner. Congresswoman, we have not looked at that 
particular issue. In countries we did visit, however, we did 
determine that they were very diligent in their efforts to 
safeguard the integrity of their passport systems.
    Ms. Waters. What about you?
    Mr. Shaw. Based on the experiences I've had with a number 
of countries, probably over a dozen, yes, they are. And they're 
encountering a range of different issues that they're facing, 
but they are all diligently working and trying to do one thing: 
make sure that the passport that is handed over at Homeland 
Security works. And that seems to be what they're trying to do.
    Ms. Waters. And, finally, if I may, Mr. Chairman, I know 
the red light is on, if you would grant me just another minute 
here.
    Mr. Hostettler. Without objection.
    Ms. Waters. Has there been a recommendation from anybody, 
any agency--Homeland Security, State Department, Immigration, 
anybody--to hold fast to this deadline and not to waver one bit 
that we can afford to extend the deadline? Have we heard that 
recommendation from anybody, anytime, anyplace, anywhere?
    Ms. Dezenski. The Secretary is going to be coming up to 
talk to Chairman Sensenbrenner in a couple weeks, and I think 
we'll be able to be a little bit more specific. We have not at 
this point made any specific statements on changing the policy 
direction.
    Ms. Waters. Have you been advised by anyone to do that?
    Ms. Dezenski. Not formally, no.
    Ms. Waters. Thank you all very much.
    Mr. Hostettler. The gentlelady's time has expired.
    I make unanimous consent--I will allow the gentleman from 
Texas, who graciously gave up his time a few moments ago to 
myself and the Ranking Member, for 5 minutes for one last set 
of questions. And I very much appreciate the indulgence of the 
panel.
    The gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I was just curious, Mr. Veestraeten. Does the identifier 
you're using, does it have a biometric chip to it?
    Mr. Gohmert. Yes, indeed. Our passport contains--I think 
that the notes I deposited earlier this week contain some 
technical information. It contains a computer chip, and on the 
chip are stored all the data printed in the passport, like 
name, first name and so on, and a picture, a digitized picture 
of the bearer.
    There is also room for another feature in the future, 
because you know that in Europe we have decided to go beyond 
the chip and the picture. We have decided with the second 
deadline, February 2008, to also include the second biometric 
feature. So this goes beyond the PATRIOT Act at the moment, and 
so there is another deadline we imposed on ourselves for 
further steps to be taken.
    Mr. Gohmert. Who produces the chip that you utilize?
    Mr. Veestraeten. It's a Phillips chip, as far as I know, 
but I'm not a specialist of the real technique. But the chip is 
Phillips. The antenna is a printed serigraphic antenna.
    Mr. Gohmert. Who produces the reader that you use that 
you've had no problems with?
    Mr. Veestraeten. The reader is a standard PDA, a pocket PC, 
and the reader antenna which is inserted is created by ACG, 
which is a company at the moment in Austria. It is produced in 
Austria.
    Mr. Gohmert. I see. Okay. Thank you. And I do appreciate 
you-all's testimony and your indulgence. But I do look at 
homeland security basically, to use the analogy, I mean, you're 
our police chief. That's your main job. We're looking to you to 
protect us. And I appreciate all the efforts that you will make 
on our behalf to do just that.
    Thank you.
    Ms. Jackson Lee. Would you yield just for a moment?
    Mr. Gohmert. Yes.
    Ms. Jackson Lee. Ms. Dezenski, you said that--I just want 
to get a qualification. I know that the Secretary will be 
coming up, but you have--there is no pronounced policy right 
now in the Department of Homeland Security about not extending 
the Visa Waiver Program deadline.
    Ms. Dezenski. That's correct.
    Ms. Jackson Lee. And so that means that as a witness here, 
you're also willing to accept, I assume, comment or insight 
from the affected persons and consult with State along with 
Members of Congress.
    Ms. Dezenski. Absolutely, and that process is already 
underway.
    Ms. Jackson Lee. All right. Thank you very much. I yield 
back.
    Mr. Gohmert. She yielded back. Let me just say I also look 
at you as representing the Beauty, Ms. Liberty, and I hope you 
won't embrace the Beast. [Laughter.]
    Ms. Jackson Lee. Now, Mr. Chairman, I really have to have 
him yield back. [Laughter.]
    The choice is between the Beauty and the Beast, and I hope 
that we'll accept the Beauty, which is to work with this 
problem for the betterment of our international relations and 
the homeland security, which we as Democrats and friends on the 
other side of the aisle have as one of our number one agenda 
items.
    I yield back.
    Mr. Hostettler. And with that, we bring this Subcommittee 
hearing to a conclusion.
    I would like to inform the witnesses that we will be 
following up with some questions to some of you. We would 
appreciate a timely response, within approximately 3 weeks, to 
have this added to the record. And all Members will have 5 
legislative days to include extraneous remarks into the record, 
as well as questions for the panel members.
    I want to once again thank all the members of the panel, 
especially you, Mr. Veestraeten, for being here and for taking 
time to help us, and this, as you can imagine from the 
participation, that your being here and your input is very 
valuable and will be extremely valuable as we continue to 
develop policy in this area.
    Ms. Waters. Mr. Chairman, I'd like unanimous consent to 
submit my statement for the record.
    Mr. Hostettler. Without objection.
    Mr. Hostettler. The business before the Subcommittee being 
completed, we are adjourned.
    [Whereupon, at 2:59 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  response to chairman john hostettler's question posed to ms. elaine 
 dezenski at the hearing, submitted by the u.s. department of homeland 
                                security



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin and Chairman, 
                       House Judiciary Committee
    On September 11, 2001, the United States was attacked by 19 
terrorists who flew planes into American landmarks, resulting in the 
largest single terrorist-related loss of American life in our history. 
The leaders of that terrorist attack either lived in Europe as resident 
aliens prior to the attack or traveled directly from Europe en route to 
the execution of this awful assault. Subsequent arrests in Spain, 
combined with examination of the terrorists' travels, have confirmed 
that the attacks were planned in Europe, in countries enjoying Visa 
Waiver Program status. Zacarias Moussaiou, the ``20th terrorist'' who 
has just this week announced he wants to plead guilty to the terrorist 
charges against him, came to the U.S. from France with a French 
passport under the Visa Waiver Program. These sobering facts are no 
less relevant today than they were three years ago.
    I authored the Enhanced Border Security and Visa Entry Reform Act 
of 2002 to address several of our Nation's vulnerabilities to 
terrorism. The need for the legislation was clear to everyone in 
Congress at the time, as evidenced by its virtually unanimous passage. 
The need for including the passport and visa requirements was not in 
dispute then, and should not be in dispute now.
    One requirement of that Act, was that by no later than October 26, 
2004, the governments of visa waiver program countries certify that 
they have programs to issue their nationals machine readable passports 
that are tamper-resistant and incorporate biometric identifiers that 
comply with biometric identifier standards established by the 
International Civil Aviation Organization. Because the 2002 ICAO 
standards seemed straightforward at the time, the only obstacle to Visa 
Waiver Program countries meeting the 2004 deadline was for ICAO to 
update standards for digital photographs of the facial images contained 
in passports, and possibly address some software and camera 
technicalities relating to how the photos could be read by machine 
standards for purposes of validation.
    My goal in selecting the October, 2004, deadline was to push 
countries to act promptly to modernize their passports. Unfortunately, 
only a few countries took the deadline seriously, and for that I partly 
blame weak efforts by the Department of State and the Department of 
Homeland Security to convince the effected countries that we were 
serious.
    The Border Security Act stipulated only that biometric identifiers 
and documents meet ICAO standards, and that the passport be ``machine-
readable.'' Congress, in passing the Act, anticipated that ICAO would 
establish reasonable, cost-effective standards which relied upon 
existing technology. That the ICAO would become enmeshed in new and 
unproven technology, and that the EU should choose an elaborate and 
expensive path to meet the requirement has led to consequences that are 
regrettable, but not insurmountable.
    Visa Waiver Program countries have had since the spring of 2002, 
one year more than initially set, to move forward to produce passports 
meeting those requirements. Some Visa Waiver countries have acted 
promptly to initiate the necessary processes, while others delayed. 
Recently, I asked Visa Waiver countries to update me on their progress 
toward meeting the requirements. From the responses received thus far, 
it appears at least twelve countries will have a viable program in 
effect prior to the October deadline. In the order responses were 
received, these include: Germany, Ireland, New Zealand, Belgium, 
Australia, Italy, Singapore, Luxembourg, Slovenia, Sweden, the 
Netherlands, and the United Kingdom.
    VWP countries failing to meet the deadline delays will impose 
burden on their citizens as well as costs on the United States, as our 
State Department will be required to staff up foreign posts to handle 
this visa demand. As I receive more letters, and further clarification 
on some of the letters received, I hope to find that all or nearly all 
of the Visa Waiver Program countries are moving forward quickly to meet 
the deadline.

                              ----------                              

 questions for the record submitted to the u.s. department of homeland 
                security by chairman john n. hostettler


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ----------                              

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas
    The visa waiver program (VWP) allows nationals from 27 countries to 
enter the United States as nonimmigrant visitors for business or 
pleasure without first obtaining a visa from a United States consulate 
office. This facilitates international travel and commerce and eases 
consular office workloads.
    The Enhanced Border Security and Visa Entry Reform Act of 2002 
mandated that by October 26, 2004, the government of each VWP country 
would have to certify that it had established a program to issue 
machine-readable passports that are tamper-resistant and incorporate a 
biometric identifier. We extended that deadline to October 26, 2005, 
last year. The extension was necessary to avoid potential disruption of 
international travel and to provide the international community 
adequate time to develop viable programs for producing a biometrically 
enabled passport.
    According to the State Department, only 14 of the 27 VWP countries 
expect to comply with the revised deadline. Brunei, Finland, Ireland, 
Portugal, Spain, Switzerland, and the United Kingdom expect to come 
into compliance several months after the deadline. Longer delays are 
anticipated by France, Japan, Denmark, Italy, Liechtenstein, and the 
Netherlands.
    Most of the countries that expect to meet the deadline are small 
countries that have small passport production numbers and centralized 
production processes. Those with large passport production numbers are 
the ones having greatest difficulty in meeting the deadline. France, 
Japan, Germany, and the United Kingdom make up more than 80% of VWP 
travelers.
    If the deadline is not extended, the VWP countries that fail to 
meet it will lose the privilege of participating in the program, and 
the nationals of those countries will need visas to enter the United 
States. The State Department has estimated that this would result in a 
sudden need to process millions of additional visas, which would impose 
a severe challenge on its resources.
    I am concerned about the effect that even a temporary disruption of 
the visa waiver program could have on the international tourist 
industry. In 2002, approximately 13 million international visitors 
entered the United States on the Visa Waiver Program. They spent nearly 
$40 billion and supported the jobs of hundreds of thousands of American 
workers. A disruption to the Visa Waiver Program would discourage 
international visitors. Many of them would choose to travel to other 
international destinations.
    I am particularly concerned about the effect that this might have 
on the State of Texas. In the year 2000, Texas received revenue from 
the international tourist industry that totaled $3,751.3 million. This 
included $410.6 million on public transportation, $111.1 million on 
automobile transportation, $1,029.2 million on lodging, $731.4 million 
on food services, $320.2 million on entertainment and recreation, and 
$1,148.9 million in general trade.
    Also, the technology for the biometric feature needs to be fully 
developed and tested before it is put into use. I am afraid that 
rushing the VWP countries into compliance could result in passports 
that have unreliable biometric identifiers, which would not provide the 
expected increase in our security.
    It is not a crisis if we have to permit some short extensions to 
the present deadline. The biometric passport is important, but we have 
other security measures that are already in place. Since September 30, 
2004, all VWP travelers entering the United States have had their 
fingerprints electronically collected and compared against watch-lists 
through the US- VISIT program. The Advanced Passenger Information 
System (APIS), provides information on international visitors before 
they arrive. And these efforts are augmented by United States law 
enforcement and intelligence operations.
    Nevertheless, I want the biometric requirement to be met as soon as 
possible. I would only favor granting additional extensions on a case-
by-case basis, and I would expect the countries requesting additional 
time to support their requests with a detailed time table for achieving 
compliance within the time requested.
    Thank you.

                              ----------                              

letter from the travel business roundtable, travel industry association 
 of america, and u.s. chamber of commerce, submitted by the honorable 
                           sheila jackson lee


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Prepared Statement of the Honorable Maxine Waters, a Representative in 
                 Congress from the State of California
    Mr. Chairman, our Visa Waiver Program needs vast and extensive 
improvement. In today's climate of terrorism, our ports of entry and 
the immigrants allowed into the country through the Visa Waiver 
Program, needs to be rigorously modified and monitored.
    When evaluating the Visa Waiver Program, procedures for 
ascertaining INS's ability to account for nonimmigrant overstays, 
stolen passports from Visa Waiver Program countries, falsified 
passports, and INS's ability to correctly and consistently check 
applicants against the Terrorist lookout system or Watchlist data, seem 
chaotic and lax. This is not acceptable in today's climate.
    Mr. Chairman, the Visa Waiver Program does bring in a significant 
financial gain to America's tourism industry, hence boosting America's 
overall economy, but I'm not sure those financial gains are worth the 
threat of terrorism and illegal activity.
    I look forward to hearing from today's witnesses to learn more 
about the Visa Waiver Program and how its procedures have progressed. 
For it is a valuable program, if we can rigorously and thoroughly 
protect our ports of entry and integrate procedures that will 
effectively prevent criminals and terrorists into America.
    I yield back the balance of my time.

                              ----------                              

Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress from the State of California
    Thank you for holding this hearing, Mr. Chairman.
    I introduced legislation in the 107th Congress that included a 
requirement that all visa waiver countries redesign their passports to 
be machine-readable and contain biometric identifiers as a condition of 
their continued participation in the visa waiver program. My bill was 
the model for such requirements included in the ``Enhanced Border 
Security and Visa Entry Reform Act of 2002,'' that are now the subject 
of this hearing.
    I am disturbed that our visa waiver partners did not meet the 
original deadline and to this day have not implemented the biometric 
and machine readability requirements. I am particularly concerned about 
how the failure to meet this deadline will impact the national security 
of the United States.
    Though I understand that there are constraints, and coordination on 
a worldwide level is not a simple matter. However, I wish to implore 
our visa waiver partners to treat security improvements with the utmost 
urgency.
    Again, thank you for holding this hearing, Mr. Chairman. I look 
forward to hearing from the witnesses about the reasons for the delay 
and, most importantly, when we can expect them begin to issue 
biometric, machine-readable documents.
    I yield back my time.

                                 <all>

</pre></body></html>
